<html>
<title> - WOMEN'S RIGHTS AND CHINA'S NEW FAMILY PLANNING LAW</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


 
           WOMEN'S RIGHTS AND CHINA'S NEW FAMILY PLANNING LAW
=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov







                          U.S. GOVERNMENT PRINTING OFFICE
82-487                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)






                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Aird, John S., former chief, China Branch and senior research 
  specialist on China, U.S. Bureau of the Census, Silver Spring, 
  MD.............................................................     1
Glick, Bonnie, former Foreign Service Officer and member, 2002 
  U.S. Assessment Team to China..................................     4
Winckler, Edwin A., research associate, East Asian Institute, 
  Columbia University, New York, NY..............................     8
Greenhalgh, Susan, professor of anthropology, University of 
  California at Irvine, Irvine, CA...............................    11
Scruggs, Stirling, director, Information and External Relations 
  Division, United Nations Fund for Population Activities 
  [UNFPA], New York, NY..........................................    14

                                APPENDIX
                          Prepared Statements

Aird, John S.....................................................    36
Glick, Bonnie....................................................    44
Winckler, Edwin A................................................    46
Greenhalgh, Susan................................................    53
Scruggs, Stirling................................................    57


           WOMEN'S RIGHTS AND CHINA'S NEW FAMILY PLANNING LAW

                              ----------                              


                       MONDAY, SEPTEMBER 23, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., Ira Wolf (staff director) presiding.
    Also present: John Foarde, deputy staff director; Holly 
Vineyard, U.S. Department of Commerce; Anne Tsai, specialist on 
ethnic 
minorities; Matt Tuchow, Office of Representative Sander Levin; 
Susan Weld, general counsel; and Chris Billing, director of 
communications.
    Mr. Wolf. I would like to welcome everybody here today to 
this staff-led roundtable of the Congressional-Executive 
Commission on China.
    Today, we are looking at Women's Rights and China's New 
Population and Family Planning Law. We have got a number of 
experts before us today. I will quickly introduce them.
    John Aird is former chief of the China Branch and senior 
research specialist on China at the U.S. Bureau of the Census; 
Bonnie Glick was part of the 2002 U.S. Assessment Team to China 
and currently with IBM, but she is here in her private and 
personal capacity today; Edward Winckler is research associate 
at the East Asian Institute at Columbia University; Susan 
Greenhalgh is professor of anthropology at the University of 
California at Irvine; and Stirling Scruggs is currently 
director of the Information and External Relations Division of 
the U.N. Population Fund, with long hands-on experience in 
China.
    We welcome you all today.
    We will start with John Aird, if you would, please.

   STATEMENT OF JOHN S. AIRD, FORMER CHIEF, CHINA BRANCH AND 
SENIOR RESEARCH SPECIALIST ON CHINA, U.S. BUREAU OF THE CENSUS, 
                       SILVER SPRING, MD

    Mr. Aird. Thank you, Mr. Wolf.
    How will China's new family planning law affect 
reproductive freedom in China, particularly the rights of 
women? To answer these questions, we need to know what was the 
purpose of the law, why it was adopted at this time, and how it 
is likely to affect the implementation of family planning in 
China.
    To address that first question, what was the purpose of the 
law, the best indication of its purpose is the justifications 
for it that were given in Chinese domestic sources during the 
23 years in which the government struggled to produce it.
    On this count there is little doubt. When Vice Premier Chen 
Muhua first proposed it in July 1979, she said that it was ``to 
quickly and further reduce the population growth rate.'' She 
added that ``parents having one child will be encouraged, and 
strict measures will be enforced to control the birth of two or 
more babies.''
    Other references to the law in Chinese sources over the 
next 4 years repeated these ideas. The timing was also 
significant, because 1979 was the first year of the one-child 
policy. This policy was bound to encounter opposition and it 
needed all the reinforcement it could get.
    When the crash program of compulsory birth control 
surgeries in 1983 created such a backlash that the Chinese 
authorities felt obliged to relax controls in order to take 
care of what they called ``the alienation of the masses from 
the Party,'' all mention of the national law disappeared from 
the Chinese media. Nothing further was heard about it until 
1988. During a period when coercion is not necessary, law is 
not needed for reinforcement.
    In March 1988, a demographic journal said that persuasion 
alone would not work without ``the necessary legal and 
administrative measures.''
    In 1989, Peng Peiyun, then head of the State Family 
Planning Commission [SFPC], said that the problem in family 
planning had become crucial. There had been a rebound in the 
birth rates in the middle- to late 1980s, and a law would be 
enacted in October 1990. But that did not happen.
    In 1990, another source said family planners wanted the law 
to be passed to make policies more authoritative and forceful. 
Still, it did not happen. In September 1999, after another 
hiatus, a vice minister of the State Family Planning Commission 
said the law would be enacted within 3 years and that it would 
``tighten the rule of law in carrying out family planning.''
    In December 2000, Zhang Weiqing, then the minister in 
charge of the State Family Planning Commission, said the new 
law was ``to ensure the status of the national family planning 
policy and the realization of birth control targets.'' He made 
other statements at that time.
    Up to this point, the rationale for the law had not 
changed. Its purpose was to strengthen control of fertility and 
add legal force to the administrative enforcement of measures 
already in use.
    But when the law was finally made public December 29, 2001, 
Zhang Weiqing announced, in an English-language dispatch aimed 
at foreigners, that it neither tightens nor relaxes population 
policy.
    That statement made very little sense. Why did the 
government work 23 years to adopt a policy that made no change 
in the implementation of family planning rules? Why had they 
gone to all that trouble?
    The most likely explanation for the change in the way it 
was represented, was several things that happened in the 
meantime that made coercion once again an embarrassing issue 
for the Chinese Government.
    First, a number of instances of extreme coercion had been 
reported by the Chinese international media since the late 
1990s, including some loss of life by family planning 
violators, and at least one instance of the deliberate drowning 
of a baby born without a birth permit.
    Second, the private investigation by the right-to-life 
organization PRI claimed to have discovered coercion in one of 
the United Nations Fund for Population Activities's [UNFPA] 32 
experimental counties in China where, of course, the measures 
were supposed to be absent.
    Then there were two other investigations shortly on that 
challenged those findings, and then still later in May 2002, a 
fourth 
investigation, in which Bonnie Glick participated, came out 
with a finding that there were still coercive measures in the 
Chinese 
policy.
    Obviously, under these circumstances this is not the time 
to draw foreign attention to a hard-fisted family planning law. 
The tightening had to be denied. Shortly, there were people 
even 
arguing--including Jiang Zemin himself--that the purpose of the 
law was to put an end to coercive abortion in China. That had 
never been mentioned as a purpose for this law in all the 23 
years. Besides, no law is needed for that purpose.
    If the central authority simply relaxed the demands that 
drive the coercion in the system, the coercion will stop very 
quickly. It did in 1978, it did again in 1980, and it did in 
1984. You do not need a law to stop coercion when it is the 
central authority that is the impetus for coercion.
    You simply relax the impetus. Family planning operatives at 
the lower level have always regarded family planning as the 
most 
difficult work under heaven, and it is also elsewhere described 
as something nobody wants to attend to. The coercion will 
immediately disappear.
    In any case, that cover story will be somewhat hard to 
promote because the text of the law is already in print. It 
contains some rather suggestively tight-fisted measures. The 
UNFPA itself has objected to three provisions, three different 
articles of the law.
    It, however, did not object to the one I would have thought 
it would object to first of all, and that is a provision in 
Article 11 that says ``specific population and family planning 
measures shall 
provide for detailed population control quotas.''
    The UNFPA has been saying that not only are quotas 
abolished in the experimental counties, but the tendency is 
spreading across China. This does not make that sound very 
likely.
    Furthermore, the law says nothing at all about the basic 
components of reproductive freedom of the ICPD [International 
Conference on Population and Development] in the 1994 plan of 
action. It does not acknowledge the rights of couples and women 
to ``determine the number and spacing of their children.'' That 
could gut the one-child policy.
    It does not guarantee their right to choose their own form 
of contraception, which presumably would include the right to 
choose none. That would run afoul of the constitutional 
provision, again repeated in the law, about the citizens' duty 
to practice family planning.
    Taking all the evidence available into account, I think one 
must conclude that the purpose of the law is still what it has 
always been. That is, to lend more compulsion to an already 
compulsory program.
    There still remains the question of what effect the law is 
likely to have. I think that as long as the coercion issue is a 
focus of international attention, efforts to present the law as 
curbing coercion will probably continue, largely in 
communications addressed to foreign audiences. There are not 
many statements of that sort 
currently being addressed to domestic audiences.
    In fact, it may be used to add reinforcement to the 1995 
``Seven Prohibitions'' document, which did not preclude all 
forms of coercion in the program, but only those that were most 
likely to create popular opposition and thus do damage to the 
program itself.
    But once world attention--which faces many other 
distractions in these years--turns elsewhere, I think efforts 
will be made to use the law to shore up citizen compliance with 
family planning rules. Whether it will succeed in doing that 
may be open to question.
    There are many factors operating in China today which are 
weakening the administrative system in general and the 
implementation of family planning in particular. These run 
simultaneously with renewed extreme efforts to enforce family 
planning that come into the international press from time to 
time, and I can document a number of those.
    There will also be a continuation of the problems brought 
about by family planning in China, including the sex ratio 
imbalance, the excessive aging, adverse effects on marital 
relations, and damage to demographic statistics.
    I think these are likely to continue. But, in the long run, 
I think the attempt will probably fail. The program, which is 
still very unpopular in China, will become increasingly 
unenforceable, law or no law. However, the time for that is not 
yet.
    Thank you.
    [The prepared statement of Mr. Aird appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Bonnie Glick.

 STATEMENT OF BONNIE GLICK, FORMER FOREIGN SERVICE OFFICER AND 
    MEMBER, 2002 U.S. ASSESSMENT TEAM TO CHINA, BETHESDA, MD

    Ms. Glick. Thank you.
    At the beginning of May, I traveled to China as a member of 
a three-person team selected by the White House to conduct an 
assessment of whether the U.N. Population Fund has supported or 
participated in the management of a program of coercive 
abortion or involuntary sterilization in the People's Republic 
of China [PRC].
    These concerns were codified in 1985 in U.S. legislation 
known as the Kemp-Kasten amendment. Since 1998, the Chinese 
State Birth Planning Commission has conducted a special program 
with UNFPA participation in 32 of the PRC's approximately 2,800 

counties.
    Given the controversy that has existed in the Congress on 
the issues of coercive abortion and involuntary sterilization, 
great 
emphasis was placed on making this a mission of objective fact-
finding and assessment.
    After we received an overview of the population situation 
in China, we began our travels through 5 of the 32 UNFPA 
counties. The five counties were selected by the U.S. Embassy 
and they 
represented a cross-section of urban and rural, poor and middle 

income.
    During the next 10 days, we traveled approximately 6,000 
miles by air and road through urban and rural China. The five 
counties visited were Rongchang County, 100 kilometers outside 
of Chongqing Municipality, Pingba County, 2\1/2\ hours from 
Guiyang in Guizhou Province, Xuanzhou and Guichi Counties in 
Anhui Province, and Sihui City in central Guangdong Province.
    We were accompanied on our travels by Mr. Hongtao Hu, a 
member of the State Birth Planning Commission. Mr. Hu received 
no more than 24 hours advance notice of our daily travel plans. 
Our visits were often unannounced and with no notice. We 
stopped in at 3 factories, 2 schools, 11 village birth planning 
substations, 5 municipal birth planning centers, and 3 
hospitals.
    I held discussions with women in the streets and 
agricultural fields who were going about their daily lives. I 
went to China with open eyes and with an objective point of 
view, and with a narrow mandate. We went to as many counties 
and as many villages as possible.
    We also made a variety of unscheduled stops. Although our 
sample size was small, I believe the results are 
representative, and that we varied our methodology through 
random visits and with little to no notice given to Chinese 
Government authorities, thereby decreasing biases in the 
observed data.
    I would like to address the conversations I had with women 
throughout our travels. In my years as a Foreign Service 
officer, I often found that women around the world, 
particularly women in societies that tend to be dominated by 
men, are willing to open up to foreign women to discuss 
personal issues.
    Thus, in speaking with Chinese women, I was able to elicit 
direct and thoughtful responses to probing questions. Culture 
played an enormous role in these conversations.
    Often, I found myself asking indirect questions in order to 
obtain genuine responses, such as, how many children do you 
plan or hope to have? How do you feel about the policy of the 
Chinese Government that ostensibly limits your ability to have 
more than one child? Do you know any women who have been 
coerced to have abortions or forced involuntarily to become 
sterilized? Do you know anyone who has to pay social 
compensation fees because she had more than one child?
    If I sensed that a woman--especially a professional woman--
in one of the health clinics was suspicious of my line of 
questioning, I would change the way in which I asked my 
questions. I might ask her, perhaps not in this county, but 
have you heard of women in other counties who might have been 
coerced to have abortions or sterilizations?
    In one pharmaceutical manufacturing and packaging factory, 
I had the opportunity to talk to a group of 15 or so women all 
working on an assembly line. We talked as they packaged 
pharmaceuticals. The conditions in which they were working were 
good, clean, and comfortable. They considered themselves lucky 
to have these stable jobs.
    When I asked them questions about their family planning 
practices, nearly all said they had just one child. One woman 
had two children, several had none. All commented that it is 
expensive to raise children.
    I met with two women in a health clinic in Rongchang County 
who had just had abortions due to pregnancies arising, they 
said, from failed contraception. I asked each of them why they 
chose to abort. The first woman said that she already had twins 
and neither wanted, nor could afford, a third child. She and 
her husband, she said, were happy with their two children and 
they had not planned on a third.
    The other woman, a 22-year-old, said that she and her 
husband were not yet ready to have children. They themselves 
were children, she said, and she wanted to wait until she was 
ready for a ``perfect birth.''
    The Chinese Government, it seems to me, through public 
service announcements in all forms of media, has convinced 
women of the merits of marrying late, delaying births, and 
focusing on a ``perfect birth.''
    What is a perfect birth? This is a potentially dangerous 
question to ask. Since abortions are legal in China, women take 
great care to ensure that fetuses they carry are perfect. If 
they fear that a fetus is in any way less than perfect, the 
inclination among 
Chinese women is to abort.
    While the practitioners with whom we met said they do not 
promote abortion as a form of birth control, they were well 
aware that many women abort rather than waste their one 
opportunity to give birth on a less than perfect child.
    As many of us are aware, this attitude has no doubt led to 
the skewed gender ratios in Chinese births. With 116 male 
children born for every 100 female children, the numbers speak 
for themselves. This skewed birth ratio, when considered among 
a population of 1.3 billion people, demonstrates that the 
demographic challenges facing China today and into the future 
are staggering.
    I was initially surprised by the near uniformity of 
responses I received to the questions I asked Chinese women. 
However, after several days I realized that the similarity of 
responses was due to the tremendous public service campaign the 
Chinese Government has undertaken to promote its one-child 
policy.
    Generally speaking, women in China genuinely and faithfully 
adhere to the one-child policy, now codified with the new 
population law. Although it is hard for Americans to accept the 
concept of limitations on family size, we must all think for a 
moment about the particulars of the situation in China.
    In a country with a population of at least 1.3 billion 
people, and where the current generation of women of child-
bearing age was raised with the philosophy of one child only, 
it is easy to see women in China accepting the limitation on 
births as part of their civic and patriotic duty.
    This public service campaign, if you will, to discourage 
multiple births has been so prevalent and so effective, that 
few women I met seemed willing to rock the boat.
    Indeed, all the women I met talked about how expensive it 
is to raise children, the underlying implication being that it 
is even more expensive to raise multiple children, given the 
coercive social compensation fees levied on families daring 
enough to have 
multiple births.
    Clearly, China is sitting on a demographic time bomb. If 
the 
population continues to grow at its current rate, it will run 
into problems of resource allocation. I went to China to look 
into the resources of the U.N. Population Fund, all $3.5 
million of its annual budget.
    When comparing the budget of the UNFPA with the overall 
budget of the Chinese State Birth Planning Commission, $3.6 
billion, it quickly becomes apparent that China is not 
interested in UNFPA for its money.
    Rather, the PRC is interested in the fig leaf UNFPA 
provides in its attempt to show the world that it conforms to 
the international norms and conventions for family planning.
    By having an UNFPA presence in China, the PRC can hold this 
fact up to the world as evidence that it follows generally 
accepted norms vis-a-vis family planning. In fact, it does not. 
The limited presence of UNFPA in China may actually hurt 
efforts to bring the country's policies more in line with 
international norms.
    This leaves UNFPA with only two options, as I see it: 
Either 
expand into more counties in China, which is unlikely given its 
tremendous resource constraints, or scale back and demand real 
reform of the Chinese Government before agreeing to share 
international expertise and before granting international 
acceptance of Chinese practices.
    Given the codification on September 1 of China's one-child 
policy, UNFPA should act forcefully to demand changes to this 
law, to the coercive fines, and so-called social compensation 
fees.
    The opportunity I had to travel relatively freely 
throughout China is one that is afforded to few people. The 
Chinese Government was accommodating in that we were allowed to 
travel 
anywhere we chose in the country. Were we fully free? Doubtful. 
Everywhere we went, we were accompanied by an official of the 
State Birth Planning Commission.
    At the initiation of our trip, I did not think it would be 
possible to operate as freely as I would have liked. In truth, 
the representatives of the State Birth Planning Commission were 
more token than anything else. Mr. Hu facilitated our 
encounters in health centers and in factories, nothing more.
    In closing, I would like to express my thanks to those who 
facilitated the visit, while assiduously avoiding any effort to 
color our team's impressions or influence our opinions. These 
include individuals in the State Department, the American 
Embassy in Beijing, and the Consulates General in Shanghai and 
Guangzhou.
    I would urge this Administration to continue to monitor 
closely this aspect of Chinese life. As I mentioned, China's 
continued population explosion is the elephant in the room that 
no one wants to discuss and all would rather ignore.
    It will place ever-increasing strains on natural resources, 
public services, and employment. These strains will be felt up 
and down the political spectrum and they must be factored into 
our decisionmaking as we deal with China in this new century. 
Thank you.
    [The prepared statement of Ms. Glick appears in the 
appendix.]
    Mr. Wolf. Thanks very much.
    Edwin Winckler, please.

STATEMENT OF EDWIN A. WINCKLER, RESEARCH ASSOCIATE, EAST ASIAN 
       INSTITUTE, COLUMBIA UNIVERSITY, NEW YORK CITY, NY

    Mr. Winckler. I appreciate the Commission inviting me. I 
have to leave out all courtesies, because in 10 minutes I 
cannot even mention what needs to be covered, so I am just 
going to dive right in.
    Let me say that Susan Greenhalgh and I wrote a 250-page 
report for the Immigration and Naturalization Service a year or 
two ago explaining the very profound changes that have been 
occurring in the Chinese birth limitation program in the last 5 
to 10 years. We are revising that report as a book for Stanford 
University Press. Since I had to update that report for the 
book, I wrote a 40-page article about the new national law--the 
programs first national law--explaining what it is doing. That 
article will be posted on your Website and it will be coming 
out pretty soon in Population and Development Review. Given 
that I cannot explain the law to you in 10 minutes, please 
consult that article for what the law is all about. I also made 
my own translation of the law, which the Commission will not 
only post, but also print with my prepared statement. So while 
I talk, I am going to stick to the outline of my prepared 
written statement and refer you to that article for details.
    However, there is something new I want to get on the table, 
which is that at the beginning of this month the birth planning 
program in China had a very important work conference where 
they summed up 2 years' of experiments about how they are going 
to go about implementing the 2001 law, which is the most 
concrete indication that we have of where things will be going 
in the next couple of years. I hope we can get into that a 
little bit in the 
question period.
    Now, the first part of my prepared statement is about 
change. If nobody remembers anything else from my presentation, 
I hope you will remember that there have been extraordinary and 
extensive changes going on in the birth program, as in 
everything else about China. It would be remarkable if the 
program were not changing a great deal. I wish somebody would 
ask me a question afterward about the political nature of this 
process, because it is a very convoluted process and it is very 
easy to misread from the outside. I cannot go into that and 
still tell you anything concrete about the change, so may I ask 
that somebody ask me about that?
    Now, the three changes that I want to call to your 
attention are, first of all, demographic change. The whole 
reason for the reorientation of policy at the turn of the 
millennium is that it is not 1983 any more. China is now facing 
a low fertility rate, not a high fertility rate. The problem 
now, as they phrase it, is to ``maintain'' the low fertility 
rate and not to drive it down any further. This is a very 
different kind of problem, so it gives them the latitude to 
make some changes, and it requires some changes.
    The second kind of change noted in my prepared statement is 
political change, which my article discusses at greater length. 
We all know that there have been great political changes in 
China. As Mr. Aird said, the current leadership is much weaker 
than the old one was. It is going out of its way not to do 
things to the population that will create unnecessary popular 
discontent. There is also systemic change, the contraction of 
the government out of large areas of the economy and other 
sectors. So it is not as though the changes in the program are 
being driven by public relations concerns about what foreigners 
think. The changes in the program are being driven by very 
powerful systemic changes in China itself.
    The third kind of change is change in the program itself. 
Again, I cannot go into it in any detail. But let me say that 
the previous peak of nasty enforcement was around 1991. Coming 
out of that, they realized that they had leaned on the populace 
too hard and unnecessarily, given how low fertility was. So, on 
the one hand, beginning around 1993, they launched a series of 
reforms to clean up their own bureaucratic act, to clean up 
their state-centric program. They cleaned it up by 
professionalizing it and by putting a lot more money into it--
by not having periodic crash campaigns by amateur cadres, but 
instead financing a professional core of birth planners and 
reproductive health workers. That is the positive side. The 
negative side, in terms of cleaning up their act, was removing 
all sorts of stupid abuses from the system, coercive 
implementation and enforcement abuses, and also corruption and 
misallocation of local funds abuses. I would be happy to go 
into that.
    On the other hand, beginning about 1995, and particularly 
later in the decade, they began moving toward a more client-
centered approach, what you might call liberalization or 
deregulation. They themselves decided that they had too much 
red tape in the program, that it was not necessary for their 
purposes. It was creating opportunities for corruption, it was 
irritating the public, and they did not need it. They launched 
a process, which they are now continuing dramatically, of 
getting rid of this unnecessary red tape.
    Now, another process of change in the program you could say 
embraces all of these kinds of reforms. Let us call it the 
process of legalization. The main point I want to make about 
that is that passing the law in 2001 had a long preparatory 
period. They could not pass the law until they cleaned up their 
enforcement act enough to narrow the gap between what the 
Chinese Constitution would require in the name of a law and 
what they were actually doing. The ``Seven Don'ts'' and the 
cleaning up the act were much more than cosmetic. It made clear 
to local cadres that they were not supposed to use grossly 
coercive implementation measures.
    The upshot--you know this because you have heard many 
sessions about it--is that the whole country is moving toward 
legalization of institutions, lawful implementation in all 
areas. So you end up at the end of the 1990s with buzz words 
like ``implementation according to the law,'' which means no 
beating people over the head and other things that were said in 
the ``Seven Don'ts,'' and ``legitimate rights and interests of 
citizens,'' which means, among other things, that citizens have 
a right not to be abused by family planning workers. That is 
the language that is the upshot of the 1990s reforms and that 
does appear in the law, and that does address the issue of 
coercion, albeit not using that word.
    The second part of my prepared statement is about the 2001 
law. Here again, I ask that somebody ask me a question about 
the principles behind the law, because some people talk as 
though China is like Sierra Leone, some kind of group of thugs, 
running around acting in some unprincipled way or beating up on 
people for no purpose. No, birth limitation is a public policy 
in China and there are a lot of complicated considerations that 
go into it. I would love to talk about that if somebody would 
like to ask.
    Now, under the 2001 law, I have three topics. The first 
topic is duties. Some people say there are two incompatible 
interpretations of Chinese birth policy, voluntary versus 
coercive. This is not very helpful, because the policy is both. 
Limiting your fertility is mandatory, like paying your taxes or 
serving in the draft in a war. So, it is not voluntary. But 
compliance with the policy is now, as Bonnie just explained, 
largely voluntary, as a result of 20 years of enforcement, 
propaganda, and socioeconomic change.
    But there is still some non-compliance. People try to get 
away with things. There is, therefore, enforcement now in the 
form of the quite large ``social compensation fee.'' So arguing 
about whether there is total reproductive freedom or whether 
the program is completely voluntary or not is a complete waste 
of time. The policy is mandatory and it is a duty of Chinese 
citizens to comply with the policy. That is a matter of 
considered public policy, and that is not going to change.
    My second topic about what the 2001 law is trying to do, is 
that the national political leadership has a huge interest in 
restraining the local state. Local governments in China tend to 
be very predatory, they try to extract too many resources from 
the public. Some have gone hog-wild in their administrative 
behavior. The national leadership is terrified of this. They do 
not want a rebellion against them on account of this 
maladministration. So one of the basic 
purposes of the law is to reign in maladministration.
    Accordingly, when you see demands for lawful implementation 
and punishments for unlawful implementation in order to 
guarantee citizens' rights, this is not boilerplate. The idea 
that it is not mentioned domestically is absolutely 
preposterous. The law came into effect on September 1, and the 
entire birth planning system spent the entire month of August 
running one of its huge educational campaigns in order--of all 
things, in a post-totalitarian system--to make sure that all 
citizens understood their legal rights and interests. That is 
not just altruistic. The point is that the government wants the 
citizens, from the bottom up, to exercise control over the 
sometimes-out-of-control local state. I would love to talk more 
about restraining the local state and I would love to cite the 
articles in the law that address this, but there is no time.
    My third topic about the 2001 law is its positive side. 
Restraining the local State addresses the negative rights of 
citizens not to be abused. The provision of benefits addresses 
positive rights. What is really extraordinary here is that the 
Chinese Government is in the process of making up new rights on 
behalf of its citizens right and left, rights that are not in 
the Constitution, rights to reproductive health care, rights to 
free this and that. I am not saying that it is paradise over 
there, but my talk is titled, ``Positive Recent Developments'' 
because if you do not recognize the positive developments when 
you see them, you cannot foster them.
    The third part of my prepared statement was about 
implementation. The main thrust of what I talked about there--
and you can look at it--are the practical problems that the 
government will have in carrying out the 2001 law, particularly 
the cost of delivering these positive reproductive health 
services and we all know how expensive that is. But, here 
again, I make a plea that somebody ask me a question about 
implementation, because now I have something much more concrete 
to talk to you about, which is this recent work conference, 
which is the implementation of the 2001 law and which is a 
positive development of such positiveness that I would not have 
dared hope for it when I made up the title.
    [The prepared statement of Mr. Winckler appears in the 
appendix.]
    Mr. Wolf. Susan Greenhalgh, please.

   STATEMENT OF SUSAN GREENHALGH, PROFESSOR OF ANTHROPOLOGY, 
         UNIVERSITY OF CALIFORNIA AT IRVINE, IRVINE, CA

    Ms. Greenhalgh. Thank you.
    Since China launched its controversial one child policy in 
1980, influential voices in this country have advanced a 
powerful critique of the state-sponsored coercion used in the 
name of limiting population growth. While the focus on coercion 
has been helpful in drawing attention to the human rights 
abuses in the Chinese program, it has outlived its usefulness.
    Three limitations bear note. First, the existence of 
coercion in the Chinese program is by now very stale news. Few 
people on earth do not know about this.
    Second, and more importantly, the exclusive focus on 
coercion has kept us from seeing, to say nothing of 
understanding, new developments in China's population policy. 
The coercion story divides the world into two opposed systems--
capitalist/socialist, free/coercive, good/bad--and defines the 
presence of coercion as the only thing worth noticing about the 
Chinese program. Evoking an older bipolar cold war world, the 
coercion perspective ignores forces of globalization that are 
profoundly transforming China's State and society, fostering 
not only change in the State program, but also the emergence of 
new and progressive quasi-state and non-state sites of 
political activity. While some Americans have been turning over 
every stone looking for coercion, since 1993-1994 Chinese 
reformers have been quietly dismantling the old target-oriented 
system, replacing it piece by piece with one focused on 
reproductive health. These gigantic changes remained invisible 
when we are only looking for coercion.
    Third, the exclusive focus on coercion has limited our 
responses to new developments in Chinese population affairs. 
The coercion critique has elicited punitive responses from the 
American 
Government, rather than constructive engagements with Chinese 
reformers.
    The official American response has been less helpful than 
it could have been. China is changing. While continuing to draw 

attention to human rights violations in the Chinese program, it 
is time to move beyond that single-minded focus on coercion to 
see the remarkable transformations that are taking place and 
the opportunities they present for constructive American 
response.
    This brief presentation draws on nearly 20 years of active 
scholarly research on China's population dynamics, policy, and 
birth planning program. That research has involved numerous 
trips to China where I have conducted extensive interviews with 
both the makers of China's policy and the peasants who are its 
main objects. In those 20 years, I have heard many 
heartbreaking stories and seen many deeply appalling things. In 
my scholarly articles, many focused on the human costs of the 
Chinese policy, I have sought not to criticize China, but to 
understand how those troubling practices came about. That has 
seemed a more productive approach.
    Today I want to make three points. First, despite the heavy 
cost China's restrictive population policy has imposed, and 
continues to impose, on women and girls, important pro-woman 
changes are occurring not only within the Chinese population 
establishment, but also outside the state, that is, beyond the 
scope of formal law, which often follows as much as leads 
social change in China. Given the growing role of non-state 
forces in Chinese politics, it is important to attend to and 
support these developments.
    The second big point. The promising changes that have 
occurred in China have stemmed, not from foreign coercion, but 
from a combination of internal critique and constructive 
engagements with international organizations. This history 
contains important 
lessons for the formation of American policy toward China in 
the future.
    The third big point. The prospects for further reform to 
advance women's rights and interests will be shaped by a 
variety of cultural, political, and demographic factors which 
present both challenges and opportunities. In this, as in other 
domains, China will continue to follow a Chinese path to reform 
that will bear the marks of that nation's distinctive culture 
and politics. We must not expect Americanization.
    Since the early 1990s, two streams of women-focused 
critique and reform of the birth planning program have 
developed within China.
    Reforms in the State Birth Planning Commission.--In the 
early 1990s, facing rising birth rates, the Commission oversaw 
the use of harsh administrative measures to reach targets. By 
early 1993, those in charge realized that fertility had fallen 
to a level far below what they had imagined possible. With 
pressure to produce results off, in 1993 and 1994, Commission 
leaders began to grow concerned about the social, physical, and 
political price that had been paid for pushing the numbers down 
so fast.
    These domestic concerns were supported by China's growing 
involvement with the international movement for women's 
reproductive health, associated with the 1994 Cairo conference. 
In the wake of that conference, collaborations with foreign 
organizations 
advancing reproductive health agendas multiplied. From those 
organizations, reformers in the Commission received a 
vocabulary of reform, financial resources, and organizational 
and technical know-how to pursue more woman-centered health-
oriented approaches. As documented in detail elsewhere, since 
the mid-1990s the State has introduced a package of 
programmatic policy and legal reforms culminating in the new 
law designed to improve the delivery of services, while 
retaining control over population growth.
    New voices outside the state.--Meantime, another dynamic 
has been developing outside the population establishment. Since 
the mid-1990s, a loosely defined group of women scholar-
activists has begun to speak out about the harmful, as well as 
helpful, effects of birth planning on women's health and well-
being.
    Crucial to the emergence of these activists has been the 
multiplying connections to transnational agencies and feminist 
and reproductive health networks forged at the Fourth World 
Conference on Women held in Beijing in 1995. Since the 
conference, a number of women's rights activists have begun to 
work to raise consciousness about the effects of State birth 
planning on women and girls and to promote policy and program 
changes to alleviate the negative ones. Women's advocates in 
China must exercise great caution in criticizing what remains 
``a basic state policy.'' In this restrictive political 
climate, transnational links have been critical, for they have 
given these women and men new concepts, political support, and 
external resources to pursue their agendas.
    NGO [non-governmental organizations] projects on behalf of 
women and girls.--Recent work has highlighted the significant 
innovations in the state program, but initiatives emerging from 
NGOs are significant as well. Such projects include women's 
income-generating activities, magazines for rural women that 
include special sections on reproductive health, telephone 
hotlines providing advice on sexual and reproductive health and 
rights, and many other things. Many of these projects have been 
developed on local initiative and supported, in part, by 
foreign organizations.
    So far, I have talked only about the projects initiated by 
urban elite actors. But China's rural people are also taking 
matters into their own hands and working to alleviate some of 
the costs strict birth control has imposed on rural women and 
girls. In the countryside, for example, a whole informal 
culture of adoption has developed that flourishes largely 
outside of the official apparatus of the state. The legal 
development of women's rights is important, but so, too, are 
informal practices that bolster women's status and rights on 
the ground.
    Challenges and opportunities ahead.--First, the challenge 
of 
political economy. In the reform area, the advance of global 
capitalism, coupled with the retreat of the State from direct 
intervention in many areas of life, have left women vulnerable 
to many forms of discrimination. New notions of the virtuous 
wife and good mother who has left the public sphere to men will 
complicate efforts to promote women's status and rights.
    Second, the challenge of traditional culture. The notion of 
women's independent rights has few precedents in traditional 
Chinese culture, a culture in which women's social and legal 
place was within the male-defined family. These cultural 
constructs will shape the way legal notions of women's rights 
develop.
    Third, the challenge of an unknowable demographic future. 
Today's relaxation has been contingent on the achievement and 
maintenance of low birth rates over the last 10 years. Today, 
by the way, the TFR [total fertility rate] is estimated at 1.8, 
quite astonishing. Should the birth rate, though, somehow rise 
or turn out to be higher than current estimates suggest, the 
reforms may well slow.
    Fourth, the opportunity presented by social change. Twenty 
years of reform and economic advance have dramatically lowered 
child-bearing preferences. In many parts of the countryside 
couples want, at most, two children, and in some areas they 
want only one. These changes in Chinese society have made, and 
will continue to make, high-pressure tactics in the birth 
planning program increasingly unnecessary.
    Fifth, the opportunity offered by a new gender 
consciousness in the state. Since the mid-1990s, the Chinese 
State has made 
women's economic, political, and educational development a 
newly important part of its ongoing reforms. While 
implementation faces obstacles, this new commitment to women is 
a promising 
development.
    Thank you. Thanks very much.
    [The prepared statement of Ms. Greenhalgh appears in the 
appendix.]
    Mr. Wolf. Stirling Scruggs.

   STATEMENT OF STIRLING SCRUGGS, DIRECTOR, INFORMATION AND 
              EXTERNAL RELATIONS DIVISION, UNITED 
  NATIONS FUND FOR POPULATION ACTIVITIES [UNFPA], NEW YORK, NY

    Mr. Scruggs. Thank you, sir.
    I will spend a few minutes talking about UNFPA's history of 
work in China, what it has done in the area of advocacy, and 
its current program.
    UNFPA first began work in China in 1980. During our first 
10 years, we focused mainly on projects that had to do with 
self-sufficiency, UNFPA supported China's first modern census, 
with assistance by the U.S. Census Bureau and the U.N. 
Population Division.
    We also supported contraceptive research in China with WHO, 
believing that a breakthrough in contraceptive technology could 
come from China because they had such an extensive research 
program.
    We began academic training for Ph.D candidates from 23 
universities in China and who were sent away to United States, 
United Kingdom, and Australian universities for their degrees. 
We also worked in the first 10 years on contraceptive 
production, assisting China to upgrade, and in some cases 
build, contraceptive factories. We did not pay for the 
building, but for the equipping and the training.
    In about 15 years, China became totally self-sufficient in 
high-quality international-standard modern contraceptives, 
including pills, condoms, IUDs [intra-uterine devices], 
injectables, and foam. We were assisted in this work by the 
Program of Appropriate Technology in Health [PATH], a Seattle-
based NGO.
    Beginning in the 1990s when I arrived in China, we assisted 
with another census. We worked with the returning Ph.Ds so they 
could establish academic programs in their own universities in 
the subject areas of sociology, demography, and statistics. 
This way they could provide research that told Chinese 
decisionmakers about the problems inherent in their policy, and 
some of what Susan Greenhalgh was talking about.
    We continued contraceptive research and we established a 
high-quality maternal and child health and family planning 
program in 310 counties. The focus of the program was on safe 
deliveries, acute respiratory infections, diarrhea, breast 
feeding, and the use of high-quality contraceptives 
manufactured in Chinese factories. Our partners in this 
endeavor were UNICEF and WHO [World Health Organization].
    We established a special inter-personal counseling and 
informed consent program which was also executed by the Seattle 
group PATH.
    The creation of China's first women's empowerment projects 
in 36 counties in 11 provinces was probably the most gratifying 
field projects I have ever been associated with. Of course, 
beginning in 1997 we initiated the current program, which 
includes the now very well-known 32 counties project.
    In the area of advocacy, we began in 1980, as soon as we 
arrived in China, advising the Chinese against the use of the 
one-child policy. We have maintained a constant dialog since 
that time with the Chinese as representatives of the United 
Nations and international standards.
    In 1983, as John Aird pointed out earlier, it became 
apparent that there was a massive coercive campaign of 
sterilizations and abortions. We sent our deputy executive 
director the day after we learned of this injustice, and I 
myself, when I was in China, met with the ministers and vice 
ministers frequently to criticize and discuss various aspects 
of coercion that would appear in the press or that I would 
learn about.
    When I arrived in China, my first field trip was based on a 
human rights event. That is a law that was passed in several 
provinces to sterilize the mentally retarded. The law was put 
together without scientific evidence or consideration for human 
rights.
    I went to villages in the northwestern part of China where 
there were a significant number of people who were suffering 
from mental retardation, much more than in a normal population. 
I went back and worked with WHO to bring in a team of experts. 
They came in and discovered that micro nutrients were missing 
from the diet and set up a massive iodine program to add iodine 
to the diet. That was financed and executed by UNDP [U.N. 
Development Programme] and UNICEF.
    In 1992, I put together a research project with the Alan 
Guttmacher Institute, WHO, and Beijing University to try to 
convince the Chinese to stop using the steel ring IUD, which 
was ineffective and caused significant difficulties for the 
women who used them--some 75 million at that time.
    The research convinced the government to switch to copper-
based IUDs 2 weeks after the report was released. Over a 10-
year period, which just ended last year, the researchers 
estimated that 41 million pregnancies, 26 million abortions, 
and 14 million births were 
prevented just by the switch of IUDs, and that a million 
miscarriages were prevented, along with 360,000 child deaths 
and 84,000 maternal deaths.
    In 1994, armed with the Cairo program of action, the Action 
Plan of the International Conference on Population and 
Development, a needs-based and human rights-based blueprint for 
global action, we were able to push the Chinese harder to 
accelerate pro-human rights changes in their program. The 
fourth country program was put together with that in mind.
    The objectives of the program in 1997 were to improve and 
provide access to quality reproductive health services for 
women and men in a small, limited area, and to demonstrate an 
integrated client-centered approach to reproductive health, 
information, and services on a voluntary basis, and by doing 
so, developing a model in these selected counties from which 
lessons could be learned and could be drawn on for application 
at the national level.
    At the beginning of the project, a so-called ``pink 
letter'' was sent to all households in the 32 counties 
explaining the project, the human rights implications, and the 
rights that the people would have for quality family planning 
and to be able to make their own choices. Although targets and 
quotas were lifted, they still were not absolutely free to make 
their own choice because of an onerous 
social compensation fee.
    Before this program was initiated, there was no privacy 
during counseling and no informed consent. Now there is privacy 
and informed consent. During the life of the project, the 
number of women who know at least three forms of contraception 
has increased from 39 to 80 percent; sterilization has 
decreased; IUD use has increased; abortion has decreased; 
maternal mortality has decreased; infant mortality has 
decreased; and delivery by skilled birth attendants has 
increased.
    Better medical protocols were developed for choice in 
contraceptives, for help during menopause and infertility, for 
support to prevent sexually transmitted infections, 
reproductive tract infections, and AIDS prevention. Also, 
protocols to promote breast feeding were improved.
    So far, this model has been adopted in 800 other counties 
in China, including 4 entire provinces.
    Challenges ahead: The social compensation fee, the one-
child policy itself, improvement of the IEC, or Information, 
Education, and Special Communication; projects to change 
behavior, and condom availability for the HIV problems that 
China is now facing. Our major mission continues to be to prove 
that choice is right, it works, and to continue to advocate for 
gender equality.
    UNFPA, like all U.N. organizations, is guided by 
international human rights standards and principles. UNFPA 
provides assistance in all phases of reproductive health, 
including family 
planning, maternal health, sexually transmitted disease, and 
HIV prevention, treatment for unsafe abortion, and advocacy for 
an 
enabling environment.
    What that primarily means is women's rights and the 
availability of reproductive health services. We assist 
countries to become sustainable in development planning and 
self-sufficiency through data collection, analysis, and 
research.
    Governments need to know the size of their population, the 
dynamics--the number who live in urban areas, rural areas, the 
internal and external migration situation, age--in order to 
meet 
citizen needs and vital statistics. We have advocacy programs 
all over the world focused on human rights, gender equality, 
women's education, social participation, health care, and 
reproductive health.
    I am proud to be associated with UNFPA. I am proud of its 
principles, its work, and its staff. But today, due to 
discrimination and lack of quality reproductive health 
services, and because of a lack of funding, ``every minute'' a 
woman dies from pregnancy-related causes, 40 have unsafe 
abortions, 190 become pregnant who do not want to be, 48 
percent of all women deliver at home without medical help, and 
finally, every minute 10 people are infected with HIV, half 
under the age of 25.
    Specifically, in China, I believe engagement has helped to 
move China to improve women's rights and to moderate its 
population policies. Much more is needed, but each day more 
citizens are getting involved and understanding this agenda. 
China is, I believe, moving forward, but they have a long way 
to go.
    Thank you.
    [The prepared statement of Mr. Scruggs appears in the 
appendix.]
    Mr. Wolf. Thank you all very much. This is a wealth of 
information, and a diversity of views, which is what we try to 
do at these roundtables.
    I will start. We had a similar roundtable 2 weeks ago on 
HIV/AIDS. One of the issues that came up was the skewed gender 
birth ratio and the implications for HIV/AIDS into the future.
    It obviously has many other implications. It is something 
that 
exists not just in China, but that skewing exists in a number 
of 
societies.
    What are some of the longer term implications of this? Are 
there concerns within the Chinese Government, among reformers 
and non-reformers, about the implications and what one might do 
to 
reduce it?
    Mr. Aird. There have been concerns within Chinese circles, 
including even, I understand, within the State Family Planning 
Commission itself, but especially in Chinese demographic 
circles, about the consequences of the use of coercive 
measures.
    In the mid-1990s, there were articles in demographic 
journals which frankly admitted that the program was based on 
coercion and argued that coercion was creating and exacerbating 
the 
popular backlash.
    One article said that the stronger the course of measures 
used, the stronger the backlash against them. Another article 
pointed out that programs of this sort represent a violation of 
women's rights. They did not have the right to choose their own 
form of contraceptive. The type of contraception was prescribed 
for them and they had to follow that. Now, these are complaints 
from the 1990s.
    More recently, and I think more significantly, something 
which has not been mentioned here, and I do not think I 
mentioned it in my written preparation--it should have been 
there but I did not really have time, in just 2 days, to put it 
in there--is the fact that there have recently been 
testimonials from top Chinese leaders going back as far as Peng 
Peiyun, the previous minister in charge of the State Family 
Planning Commission, and now including Zhang Weiqing, who has 
said this several times, and even Jiang Zemin himself, that the 
present low birth rates are unstable. Some of the quotations 
suggest that the----
    Mr. Wolf. Excuse me. I am sorry. Maybe I was not clear. My 
question was, the implications of the skewed gender birth 
ratio.
    Mr. Aird. Skewed gender. Well, all I know about the 
attitudes on that, is there has been an outcry that the danger 
of this sort of thing is that, within a given period, many 
Chinese men will not be able to find wives and that there will 
be serious problems of 
social unrest as a result.
    There have been current reports in China of difficulties 
with abduction of women under false pretenses into rural 
villages, reports of women being lured away on a social service 
basis and then finding themselves used as common property in 
villages where there are insufficient women.
    The government has expressed concern about this, and of 
course it is partly a result of the one-child limitation, 
particularly its impact on rural areas where it is important to 
have a male because it is the only basis for Social Security in 
many villages when the family grows old.
    But the other part of it, of course, is the traditional 
Chinese 
preference for males, which is not confined to China, but is 
found elsewhere in Asia.
    Mr. Wolf. Right.
    Susan, I wonder, could you comment on long-term 
implications and the possibility of, I do not know, reversals 
from policy means?
    Ms. Greenhalgh. The long-term implications are really 
worrying. You probably know that the sex ratio at birth now is 
116.9. It is really high, and it gets worse with higher-order 
births. It is hard to say what the long-term implications are.
    I think we cannot be sanguine about the implications for 
women. The rise in the abduction and sales of women in rural 
areas is directly connected to the disappearance of 
marriageable women. On the other hand, the government has been 
deeply concerned about this since the early 1990s especially 
since around 1993.
    The deputy director of the State Birth Planning Commission 
issued an order to stop using ultrasound for prenatal sex 
determination, because this is the major factor behind the 
increase in the sex ratio at birth. Parents are aborting female 
fetuses. Those kinds of measures have not been very effective. 
All you need to do is bribe the local medical worker and you 
can be told the gender of your unborn child.
    Increasingly, especially since the mid-1990s, there has 
been a concerted effort in many areas of government, including 
the State Birth Planning Commission, to change tactics. That 
is, to try to improve women's well-being on all fronts: 
political participation, economic status, legal status, health 
status, and so on. This is where the action is now.
    I have a new statement, right off the Web, in Chinese, on 
the interpretation of the new law, ``Central Concept: People as 
the Core. Major implementation strategy: Improve the status and 
legal rights of women.'' So, that is encouraging.
    Mr. Wolf. Thank you.
    John Foarde is the deputy staff director of the Commission.
    Mr. Foarde. Thank you, Ira.
    Thank you all for coming and sharing your expertise with us 
this afternoon.
    Since the late 1980s, and particularly after the Tiananmen 
massacre in 1989, a number of Chinese people have come to the 
United States and asked for asylum under the Immigration and 
Nationality Act. A great many of them have asked for it on the 
basis of the family planning policy.
    I take it, John, you, and also Ed and Susan, have done 
background papers over the years--a recent one in your case, I 
think--for the INS to consult when trying to adjudicate these 
claims.
    Can you give us a sense of whether there has been any 
change in the nature of those claims in the last 12 years, and 
if more recently there is the same basis on which to grant 
asylum on that basis as it was, for example, in 1990, 1991, 
1992?
    Mr. Aird. It is hard to detect a change because when I see 
the cases, sometimes the offenses that they refer to occurred 
2, 3, 4, 5 years ago. However, recently, for example, I had two 
cases in which the complaint was recent--it was dated from 
about 2000, 2001--of children born without a birth permit.
    In one case, it was a daughter born to a couple in a 
hospital. The child was obviously in good, healthy condition. 
It was born under circumstances of a forced late-term abortion. 
The child emerged, however, unharmed, but was taken away and 
apparently killed by the hospital personnel because it did not 
have a birth permit.
    In the second case, it was a girl, again, a forced late-
term abortion. The child was born alive. It was taken home by 
the parents. One week later, the Family Planning people came to 
the home and said the child needed an inoculation.
    The parents suspected nothing. The inoculation was given. 
Shortly after they left, the child began to experience 
difficulty in breathing. They rushed it to the hospital, where 
it was declared dead on arrival.
    There, a family planning official--or one of the doctors, I 
do not remember which--said to the couple, do not think you can 
escape the long reach of the family planning policy. That 
alerted them to the idea that the inoculation was probably a 
lethal dosage intended to kill the child born without a permit.
    I cannot trace that these things are getting any more 
moderate over time, but I think these are rather deviant 
samples. I do not think there would be much basis for 
generalizing from them. All they say is, such incidents 
continue. They continue because local cadres are still under 
pressure to make sure that they do not exceed their birth 
quotas.
    Mr. Foarde. Thank you. Susan.
    Ms. Greenhalgh. I will take that one. I agree that it is 
impossible to detect a change in the nature of the stories, 
because many of the claims are for events that happened even 
10, 20 years ago. My firm view is that these kinds of stories 
that these claimants tell are not at all a reliable basis for 
our knowing what is going on in China.
    I have discussed this matter with a number of INS agents, 
people who are on the front line listening to these stories, 
trying to decide whether they are credible. The INS agents have 
a very difficult time. For one thing, the INS does not require 
any kind of documentation, so people can just tell whatever 
story they think is going to give them political asylum in this 
country.
    And while the abuses that have taken place in the program 
are really pretty terrible, there are also networks of story 
shapers out there that help to shape the stories that people 
tell. So, I do not think that these kinds of stories are going 
to be a good basis for shaping American policy having to do 
with China's birth planning program.
    Mr. Aird. May I voice a note of dissent?
    Mr. Foarde. Please.
    Mr. Aird. Many of the stories that I see, Susan, are highly 
detailed. They have a ring of verisimilitude. I do not get a 
chance to question the applicants themselves. I never have that 
opportunity.
    But, where I think the applicants' comments are not very 
credible, I do not accept the case. That has happened in a few 
cases. In fact, once I testified on the other side, on behalf 
of the Service and against an applicant whose story I found not 
believable.
    Often, too many times, however, the story is simply too 
vivid, too particular to be dismissed as a fabricated story. 
But, again, you are absolutely right. As I said earlier, it is 
hard to generalize from these stories about things. What they 
say, is it is still going on in some places.
    Mr. Wolf. Susan Weld is the general counsel of the 
Commission.
    Ms. Weld. As you all know, this is a rule of law 
Commission. We are supposed to be focusing on the rule of law 
in China. So I am interested in what ways does the expression 
of this policy in the form of a national law make a difference?
    Does it mean that women will have causes of action to try 
to apply some of those penalties against the administrators who 
do the abuse? How will this be enforced? Is there additional 
legislation necessary before that step can be taken by women 
who are the victims of abuse? I guess, Ed, could you respond to 
this?
    Mr. Winckler. Well, that does go to some of the 
implementation questions. I think a set of legal premises--the 
language about lawful implementation and legal rights of 
people--is the crux. Then there are supplementary implementing 
regulations, such as the Technical Services Regulations, that 
begin to spell out what that is supposed to mean. And now there 
is also this work conference where they are putting together 
their package of implementation measures. This is the Chinese 
talking to themselves--not the Chinese talking to foreigners--
which is always the best kind of evidence you can get. This is 
the model that they are going to prop up to be what the whole 
country should do.
    If I could just take a slight sidebar. There is the 
misapprehension that the 2001 law calls for targets and quotas, 
but that is simply a mistranslation. The whole system has begun 
the process of dropping targets and quotas, partly under UNFPA 
urging, and this city in Heilongjiang, which is going to be the 
national model, has gone quite far in that direction.
    The real crucial test is that not only is the formulation 
of policy implementation measures shifting from making up 
target numbers that cadres are supposed to meet, toward making 
up programs for raising the quality of reproductive health 
service, but also they are doing the same thing in the 
``responsibility systems,'' the personnel evaluation systems. 
This is supposed to go to your question of, how do we know that 
the law is going to make a difference? Well, we know it is 
going to make a difference because they are using this tool, 
the personnel evaluation system--it is astounding--to do 
exactly the opposite of what they used the same tool to do in 
1991 when they used that tool to enforce a very coercive 
enforcement of the program.
    Now, in Mudanjiang, in Heilongjiang, the new model, they 
are not going to have any item in the personnel evaluation 
system for population quota or for birth rate. They are 
dropping the demographic indicators and they are switching all 
the indicators over to quality of care, which of course 
includes women's rights not to be abused and so forth. But the 
emphasis now, because they really feel that they have gotten a 
handle on the abusive administration problem, is quality of 
care and it is ``democratic participation.''
    Now, I utter that in quotation marks because this village 
self-government business where the government is trying to get 
the community itself to enforce the program does not mean an 
absence of coercion. The program is still mandatory. But in 
terms of guaranteeing that there will not be abusive 
implementation, that everything is fair, that it is 
transparent, and so forth, that is exactly what the government 
is trying to do, by putting as much of the administration of 
the program in the hands of village committees as possible. 
That is the emphasis in this new implementation model that is 
being put out.
    Ms. Weld. I was thinking of something quite specific, which 
is when the women's rights and interest law was passed it was 
criticized because it says women shall have all these good 
things, and certain ways of treating women shall be considered 
abusive and illegal. But there was inside that law no cause of 
action, so you often had to depend on somebody else, like the 
Women's Federation or somebody, to come up and sue on your 
behalf.
    So I am looking for a way that the people harmed, the women 
in particular, can be subjects rather than objects. The 
government is trying to reform the abuse from the top and the 
United States is trying to reform it from the outside, but the 
women are the ones harmed. How can they enforce the law for 
themselves?
    Mr. Winckler. Well, the quick answer is that national laws 
in China are always vague. There is a tissue of laws, other 
related laws--administrative redress and administrative 
litigation and so forth--that if you want to take a legal 
approach is what you would rely on. The procedures are there. 
But actually this village self-
government thing is much more to the point, because if you are 
a woman in a village and abused, you do not have to go through 
some complicated court process. You just bring it up within the 
village and the village leadership should complain to higher 
authorities.
    Ms. Weld. Thank you very much.
    Mr. Wolf. Anne Tsai, who is our specialist on ethnic 
minorities.
    Ms. Tsai. I was just wondering if any of you have a sense 
of the Chinese public's reaction to the law, particularly women 
in various parts of China. Let us start with Bonnie.
    Ms. Glick. When we were there, the law had not yet been 
implemented. So when we would address the idea that there was a 
new law coming, it was hard to elicit any responses on that 
except in discussions with government officials.
    When we met with people from the government who were 
generally at the deputy Governor level, is the easiest way to 
describe it, of each of the five counties that we went to, they 
toed the line.
    Going to Susan's question about the legal process through 
which people could address their claims, we would specifically 
ask in each case, have you had examples of families or women 
coming through the courts to say we have this child, we do not 
want to pay social compensation fees, we cannot pay social 
compensation fees, whatever it was. And the constant response 
was, rather than going through the courts, we handle these 
things off-line.
    The sense is certainly that there are formal measures of 
redress in place, but they are probably not used. When we asked 
if we could cite cases that had been brought to court, no, we 
have not had any cases in this county.
    In terms of women, it was actually so interesting to see 
generational spreads on that. When talking with older women who 
were government officials, they were pretty hard-core, is the 
best way to describe their impressions.
    One woman said to us, well, there is no discussion here. We 
are on a boat. We are 50 people on a boat and there are limited 
resources on board this boat. If somebody brings an extra 
person on board, what are we supposed to do? We cannot have 51 
people on this boat.
    The younger women we met with, also government officials, 
were at least, in tone, more flexible in terms of their 
perceptions of where China was going, what the new law would 
bring, but nobody was willing at the time to comment on 
specifics of the law.
    Ms. Greenhalgh. I can address that, but kind of obliquely. 
It is way too early to know people's reactions to the new law. 
But in answer to your question, and also Susan Weld's, how 
women can become subjects, not objects, of these legal and 
policy developments, I had an interesting set of interviews in 
Beijing in late 1999, mostly with women's rights scholar-
activists. They described to me how the women's activists are 
really constantly monitoring what is going on in the state, new 
legal and policy developments. They gave me an example of a way 
they can use these developments subversively to advance women's 
own interests.
    For example, they pointed out that new developments in the 
State birth planning program at that time had focused mostly on 
``quality of care'' and the concept of ``taking people as the 
core.'' They were not really sure. That seemed like a top-down 
process of reform and they were interested in bottom-up, 
individual-initiated reform. So they pointed out that they 
could take that concept, quality of care, which had a rather 
restrictive definition in terms of the State use of it, and 
broaden the meaning. Everybody knows that, after Cairo, 
concepts like that have a multiplicity of meanings. So, they 
could take that because the State introduced it in formal 
legislation and policy developments. They could say, aha! Take 
that, grab it, broaden the meaning. Use it to gain more support 
for it. In this way, they could broaden the types of changes 
that are going on in China. I was really excited about that.
    Mr. Winckler. Just one word. There is considerable 
literature about the uses that ordinary Chinese citizens make 
of some of these administrative litigation procedures. Kevin 
O'Brien has a wonderful article about this, called, ``Rightful 
Resistance.'' So there is every reason to think that, as a 
result of the August campaign educating everybody about these 
rights--even though this which probably is not a complete 
process--as people learn of these rights they will use them. 
They have used similar rights in other policy areas, so there 
is no reason to think they will not do it here.
    Mr. Aird. I would just add a quick comment. One ironical 
result of the law already was, men claimed that under it, since 
it guarantees the right to have a child, that they should have 
the right of veto over a woman voluntarily seeking abortion. 
That caused a 
little excitement in China.
    Mr. Wolf. Thanks.
    Matt Tuchow works for one of our Commissioners, Congressman 
Sander Levin.
    Mr. Tuchow. My question is for Professor Greenhalgh and Ms. 
Glick. Is there any evidence that the UNFPA funds are being 
used to directly fund forced abortions or sterilizations? Then 
I have a follow-up question for Mr. Scruggs, which is, what 
mechanisms are in place at the UNFPA to prevent such direct use 
of funds?
    Ms. Glick. I went to 5 of 32 UNFPA counties. In those five 
counties, I saw no evidence that UNFPA directly funds a program 
of 
coercive abortion or involuntary sterilization.
    I cannot say that I saw everything. The question that you 
ask of direct funding of forced abortion, what does direct 
mean? As I learned on return, this is something that lawyers 
figure out after the fact. I would have to say that, based on 
the 5 of 32 counties that we went to, we saw no such evidence.
    Ms. Greenhalgh. I certainly have no evidence that UNFPA 
directly supports such practices. But I do have evidence based 
on 20 years of going back and forth to China and working mostly 
in the scholarly domain, and observing what UNFPA does from the 
outside, of UNFPA's working to support the reformers within 
China. Obviously, UNFPA cannot control everything that goes on 
within its bailiwick, but my impression is that their work 
overall has been moving things in the right direction.
    Mr. Scruggs. We monitor, as much as we can, all of our 
programs there. We monitor and require exact information on 
procurement and program activities. With this particular 
program, it seems like half the countries in the world have 
helped UNFPA monitor including the United States which monitors 
frequently.
    But to speak to what we have always tried to do, it is to 
engage the Chinese in dialog. For example, the sterilization of 
the mentally retarded. We tried to find a solution to that, and 
I believe, did.
    When you were talking about sex ratios earlier, we 
supported the research that began to bring that information out 
that came from some of the scholars we trained. We supported 
the Ph.Ds who became the people who went to the government and 
told the government what their policies were doing, and how 
they were harming the social fabric in China.
    What we do, is we try to be a voice for change, a voice for 
human rights, a voice for reason, and we monitor everything 
that we do to the best of our ability, both financially and 
programmatically. Everything that we do is plotted in a work 
plan that is fairly rigidly adhered to.
    Mr. Tuchow. A follow-up for Professor Greenhalgh. You 
mentioned in your testimony something to the effect that the 
emphasis on coercion was restricting constructive engagement.
    I was wondering if you can elaborate on that. What sort of 
constructive engagement? Has it been the UNFPA or others that 
you think were helpful? You mentioned briefly the NGO contact, 
but I am interested particularly with regard to international 
organizations.
    Ms. Greenhalgh. I think it would be very helpful, if 
instead of the United States constantly scolding China for 
being coercive--and everybody knows, people in this room, 
people around the world, people in China know that coercive 
abuses continue to occur in the program. But the question is, 
is that what we should be noticing, or should we be noticing 
the broad changes, systemic changes and very particular changes 
that are leading to a reduction in the incidence of those 
terrible abuses? I think it would be wonderful if, instead of 
just criticizing China, we would acknowledge that China is not 
this massive totalitarian State any more. China is quite 
politically divided inside. There are all sorts of factions, 
just as there are in this country. There are a lot of reformers 
within China.
    By the way, we should notice that the Chinese Government is 
increasingly filled with people with at least bachelors 
degrees, being filled with engineers. These people are not the 
old Communist cadres that many of us still think about when we 
think about China.
    I think it would be really helpful if we could identify 
reform factions within China and support the work of those 
organizations, both within the state and NGOs who are operating 
outside the state. We can work through international 
organizations to support the people and China if that is what 
works better.
    Mr. Wolf. That is actually an interesting issue that our 
own bosses are struggling with as members of the Commission. 
How do you balance the issue of identifying problems of human 
rights abuses and putting a spotlight on them while, at the 
same time, recognizing that in various areas there are changes 
going on, and the China of today is not the China of 25 years 
ago.
    Mr. Aird. I keep asking to add a footnote. May I do one 
more?
    Mr. Wolf. Sure. Go ahead.
    Mr. Aird. There are several sources that I have seen over 
the years in China which indicate that foreign criticisms of 
human rights violations in China have had two effects. One, is 
to weaken the use of coercion at the grassroots level, because 
apparently the word gets down and it undermines the confidence 
of cadres in 
applying coercive measures.
    The other, is that it tends to strengthen the hand of 
people in China who are already objecting to coercion and who 
feel that the moral sentiment of the world may be, to some 
extent, on their side.
    So I think that it is not entirely a negative impact. It 
can have a constructive impact on the diminution of coercion 
and on 
re-thinking coercive measures in China.
    Ms. Greenhalgh. Can I add a quick footnote to that?
    Mr. Wolf. Sure.
    Ms. Greenhalgh. I have done extensive field research at the 
local level and at the village level in China, and also read 
the 
reports of other anthropologists who have done similar work. I 
sincerely doubt that foreign criticism has undermined the use 
of coercive practices at the local level. I mean, people do not 
have any idea what is going on outside China in the remote 
areas of rural China. So, just a footnote to that point.
    Mr. Wolf. No more footnotes.
    Where are the reformers? Are there focal points within the 
ministries, within the Party, within other areas?
    Mr. Winckler. Basically, I should say that we do not know 
the politics of all of this very well. Certainly, some of the 
reformers are the people that, as Stirling Scruggs explained, 
UNFPA helped train as demographers so that they can give some 
professional input to the policy process.
    The only reason I grabbed the microphone is that I had the 
good fortune to be involved in an effort of constructive 
engagement to help reform the birth program at the request of 
the State Birth Planning Commission. One hundred of their 
people came over to the United States, and many of them are the 
reformers, people who, at that point, were deputy directors of 
their departments, and so forth. These are now the top 100 
people in China who run the program, running all the 
departments in the central government, and running the 
provinces locally. Most of these people are a joy to talk to, 
they are extraordinarily open-minded.
    Incidentally, apropos of the 2001 law, one of the reasons 
why I think I know what the law is trying to do, is that a 
member of the last delegation that I met with in March of this 
year helped draft the law and was the human rights specialist 
in the process of drafting the law. He sure as heck is a 
reformer, to continue on that line. You sit there with him and 
go through the law, and he is pointing out all the things that 
are not there, coercive provisions, and he is telling you that 
he is going to go and meet with the provinces and get them to 
remove those kinds of provisions from their local 
legislation. I mean, there is a reformer for you, and the other 
new people running the State Birth Planning Commission.
    Mr. Wolf. Any other thoughts, institutionally, where those 
loci are?
    Ms. Greenhalgh. Yes, definitely. In the State Birth 
Planning Commission, in the CPIRC, China's Population 
Information and Research Center, in the universities. I happen 
to know the demographers, the academic wing, better. Most of 
these people, the younger people in particular, were trained 
abroad. These people have learned a lot in this country.
    They all want China to be a respected member of the 
international community. They still work in politically 
difficult 
circumstances. They have to be careful how they say what they 
say. These are people who are actively interested in reforming 
the program.
    Even within the State Birth Planning Commission, it is 
amazing. In 1999, I interviewed the man, a very high-level 
official at the Birth Planning Commission, who was personally 
responsible for getting those targets achieved in the early 
1990s. That achievement entailed horrendously coercive 
measures. This man totally turned around. He was influenced by 
a Chinese sociologist, trained in this country, who kept saying 
in his ear, ``behind the numbers are tens of thousands of 
families. Remember the families.'' This man totally turned 
around. Of course, he achieved his targets, and then he had a 
complete revelation. He personally feels very terrible about 
what happened. So, it is amazing where you can find the 
reformers. This is a tough-minded, engineering-type person.
    Also, these NGOs that are springing up. All those are very 
interested in promoting change, and there are a lot of them. 
One can gain access to them. Even on the web, it is out there.
    Mr. Wolf. Bonnie.
    Ms. Glick. I think, too, that we saw a stark difference in 
two different government agencies. One, was the State Birth 
Planning Commission, where I truly agree that you have really 
enlightened people who have been trained in the United States 
and in the United Kingdom in demography, and they also have 
souls.
    These were people who genuinely want the situation to 
change in a way that is focused on reproductive health and 
maternal care. I am going to put them in stark contrast with 
the folks who are with the Ministry of Health. I do not know 
why the distinction exists, but in the Ministry of Health the 
focus is on making numbers, it is on staying the same, not 
changing.
    What came to light very graphically for us, was in one of 
our first stops we went to a State Birth Planning Commission 
health substation. It was clean, the people were friendly, the 
displays were easy to understand. Right next door, was the 
hospital and it was the most horrifying scene that I have seen.
    I have lived in some extraordinarily poor countries, and 
this was worse than anything I had ever seen. The entryway to 
the hospital was full of coal and there was a motorcycle parked 
there, and there were puddles everywhere filled with syringes 
of medical waste that children were playing with in the 
streets.
    It was just such a horrible juxtaposition of what really 
struck me as focused on women's health care, and then the 
Ministry of Health and the gross distinction between the two.
    Mr. Wolf. John, you want to add a footnote, please?
    [Laughter.]
    Mr. Aird. No footnote this time.
    Mr. Wolf. A comment on reformers?
    Mr. Aird. Well, I think I mentioned earlier that I have 
seen signs of it, of course, in the demographic journals which 
have condemned coercion and said that it does not work, that it 
provokes popular resistance. So, it is quite clear.
    I also have heard of people attending demographic 
conferences in China in which there were violent shout-downs 
over the issue of the implementation of the family planning 
program between people who defended it and people who felt that 
it was inhumane. This does not get into print, but apparently 
it is going on.
    Mr. Wolf. Sure. Go ahead.
    Mr. Scruggs. Ira, I have a footnote. It is a story that I 
believe speaks to what Bonnie and Susan both spoke about. As I 
said 
earlier, we conducted an interpersonal counseling and informed 
consent training program for many people in the State Family 
Planning Commission when I was in China.
    About 6 months later after the training was completed, I 
went to one of the areas at the edge of the Gobi desert and met 
with some of those people. I said, how is it going? How do the 
people like it? They said, well, we tried it for a while and it 
was a wonderful thing to do, because the people responded and 
we felt more humane. But our supervisor stopped us.
    But I can tell you, just as these Ph.D candidates and 
others, like those people that were trained and understand the 
impact that it has on their interpersonal relationships with 
clients and that it has on health care. They will make changes 
when they can. They are moving China.
    Mr. Wolf. Thanks.
    John Foarde.
    Mr. Foarde. Bonnie, during your statement you concluded 
that the Chinese do not meet international norms for family 
planning. Can you give us a summary, for the record, of what 
those norms are and where they come from?
    Ms. Glick. I think probably everyone here is better 
qualified than I to State chapter and verse, but coming from 
the ICPD and the focus of UNFPA on informed choice, John 
pointed out, informed choice should mean the choice not to have 
to use contraception. That is not the case in China.
    In America, we have a lot of freedoms. China is a police 
state. The idea that women and their personal lives, while 
nothing like they were in the 1970s where women's menstrual 
cycles were tracked and everyone knew if you were pregnant, 
that has changed in China. But these fees that the Chinese 
Government refuses to lift are not in conformance, as far as I 
can see, with any sort of international norms.
    When we would meet with these Chinese Government officials 
and say to them, you know, your program is going great in this 
county and you have been selected, you have self-selected to 
participate in the UNFPA study, what if you lifted the social 
compensation fees?
    And across the board, the response was always the same, oh, 
we could not possibly do that. It all comes from the center. We 
are told what to do from the center.
    I think that the Chinese still have not reached the point 
where Chinese Government officials trust the population. If it 
means that 300 million women of child-bearing age in China were 
suddenly given the freedom to have two children, that would be 
an additional population the size of our country. That is 
something that China is really having to struggle with.
    Mr. Wolf. Susan Weld.
    Ms. Weld. Thanks. I wanted to ask Mr. Scruggs about the 
UNFPA and different ways of improving the birth planning 
system. Does it result in improved health care for women 
throughout their lifetime, or is it focused only on their 
reproductive health care? Is this something which is going to 
be an effort in those kinds of 
programs?
    Mr. Scruggs. We focus on reproductive health care from 
cradle to grave for all people. That means that it starts with 
prenatal care, medical care that women get, and nutrition that 
they get 
during their pregnancy. And, of course, family planning, which 
saves more lives than any other intervention because it helps 
prevent high risk births that women have who are very young, 
who are old, and who have had multiple births.
    So I think that we have a dramatic impact on health, 
women's reproductive health, and, of course, training birth 
attendants so that all women can have assisted childbirth and 
deliveries. That has been a focus of the work. I think that 
when you improve the quality of care--for example, one of the 
things these 32 counties do, which is routine in the United 
States, is that people understand how each method of 
contraception works and then they choose what is best for them. 
This choice leads to better results, fewer abortions, and fewer 
complications. Anyone--and certainly a woman--knows that 
certain things work for them and certain things do not. Of 
course, there are contraindications, such as smoking and blood 
pressure, with various methods of family planning: That is why 
one needs counselling and consent.
    We have seen in these counties that maternal mortality and 
infant mortality are improving. The abortion rate is going 
down, which is what will happen when people use contraceptives 
of their choice. But this is a long discussion and has many 
facets.
    Ms. Weld. Let me move the question on to some of the other 
people. What I am trying to get at, is whether the idea of 
Cairo, which is that if women are given other ways of getting 
power and status in society, they will not focus so much on 
requiring many children to support them in their old age, or to 
support their family in their old age. So I am wondering, are 
those principles actually being adopted in any part of the 
Chinese policymaking community?
    Mr. Winckler. Well, I can make one brief comment on it. I 
think the Chinese have totally bought into Cairo. That is not 
true with regard to freedom not to contracept--though, now they 
are about to start dropping the spacing requirement. In some 
specific ways which one might wish to consider extremely 
important, they are not in compliance with international norms. 
But as far as the broad vision of Cairo and shifting the 
emphasis to empowering women and giving them economic 
opportunities and raising their status, the Chinese totally 
have signed onto that. In fact, they started trying to do it 
before Cairo.
    One of the reforms that they started making in the early 
1990s was an idea that was sort of analogous to ``you cannot 
raise a child without the whole village.'' You cannot change 
people's reproductive behavior without making many changes 
throughout the whole society. So, they are trying women's 
empowerment programs, and poverty alleviation programs, and 
programs targeted precisely at poor women, and programs 
targeted at the poorest areas of the country, and western 
China, and so forth.
    Now, many of those programs are under the auspices of other 
administrative systems than the birth planning system, because 
clearly it cannot have a competence in all of those areas. But 
the man who supervises birth planning these days on behalf of 
the State Council is Wang Zhongyu, who is the Secretary General 
of the State Council. By the way, he attended the work 
conference I am talking about and, on behalf of the cabinet, 
which is clearly intimately involved in shaping this new 
policy, endorsed the whole thing. Anyway, if you look back over 
the last 5 years or so, Wang Zhongyu has chaired endless inter-
agency coordination committees trying to implement this more 
comprehensive approach that I 
mentioned. So, I think that the Chinese are doing everything 
that they have the resources to do, and everything they know to 
do, and everything that the Cairo conference ever thought of.
    Ms. Weld. Bonnie, do you have one little sentence to add? 
If you do not, that is fine.
    Ms. Glick. No. No, I do not.
    Ms. Greenhalgh. Can I go back quickly and address that 
reproductive health question? I think it is important not to 
think of reproductive health as something having only to do 
with reproduction and a woman during her childbearing years, 
because the Cairo 
concept includes women's health throughout their lives.
    In China, it is particularly important because some of the 
reproductive health problems you can get during your 
childbearing years, like upper reproductive tract infections, 
can impair your health and well-being throughout your life. By 
addressing those early, it is improving women's health 
throughout their lives.
    I have to tell you, I have been an outspoken critic of 
China on this birth planning program, especially because of the 
implications of the program for women. I have just been really 
amazed at the changes. For example, they did a reproductive 
health survey, one in 1997 and a recent one in 2001. About 
40,000 people were surveyed. The improvements in reproductive 
health care between those two periods are really dramatic.
    I will not read you the statistics, but things like 
proportion of women taking iron when pregnant doubled, taking 
calcium while pregnant went from 7 percent to 40 percent, 
prenatal check-ups, from 57 percent to 82 percent. I mean, 
dramatic changes are taking place. I actually have turned 
around on this issue.
    Mr. Wolf. Anne.
    Ms. Tsai. This question is for Ed. I was just wondering if 
you could elaborate further on the implementation of the new 
law and findings of the conference that you discussed.
    Mr. Winckler. Well, let me see. I think I already got the 
main point across, which is that they are shifting all the 
administrative emphasis from the old target-driven approach 
toward the new 
client-centered approach.
    Could I just step back slightly and address the question of 
the nature of the change process, which will then come back to 
implementation? The analogy I use is of Nixon and Kissinger 
deciding to withdraw from Vietnam. There are 300,000 to 400,000 
workers in this birth planning system. If you are going to turn 
an organization around that has that many people in it, you 
have to proceed cautiously and bring them on board before you 
hit them with new measures, and so forth. Nixon and Kissinger 
could not just say, well, this is all a terrible mistake, the 
troops get out instantly. You have to retreat in a systematic 
way, particularly since, as Susan has documented for the 1980s, 
the minute you give the population the idea that the program is 
breaking down or softening its policies, then people start 
doing things that are outside of the parameters of what the 
program can accept.
    So think of it as a strategic retreat, and under fire, if 
you like, from conservative legislators like Li Peng. Mr. Aird 
pointed out that there are lots of contradictions in the 
statements that are coming out. Those are partly the result of 
the fact that this is a highly political process. Parts of the 
2001 law itself are a sop, if you like, to the old style of 
planning everything from the top down: it spells out the formal 
framework of planning. As I say in my article, all of the 
language is there for either a state-centric approach or a 
client-centric approach, and that is why I consider this recent 
work conference so important, because it shows that they are 
moving ahead with actually implementing the client-centered 
provisions that are a part of the 2001 law.
    As far as the specifics of the conference are concerned, I 
have got the conference summary right here. How can I summarize 
it briefly? Let me put it this way: practical details. One of 
the recommendations of Bonnie's group was that we need to 
monitor this program more, and the Congress needs to 
appropriate some money so that the State Department has some 
money with which to follow these developments. What needs to be 
monitored is no longer what the policy is, because that is 
fairly clear, but rather this implementation process. It comes 
down to very nuts-and-bolts issues.
    Health care funding in China is a little bit like in the 
United States, at least in New York State where I live. It is 
wonderful to have these women's rights to this and that 
service, but it is actually possible only if the locality can 
afford it. So, you get into very nitty-gritty questions like, 
can the country afford these 300,000 to 400,000 birth planning 
workers? Bonnie has described the fine facilities that they 
have in some places, but those are expensive and largely have 
to be paid for by the local community.
    So, both from our point of view and from their point of 
view, what is on the table at this point is a lot of nuts-and-
bolts issues. One of the things that you see as you go through 
these work conference documents, is that they are very candid 
about all of this. For example, down at the level of specific 
measures here is Wang Zhongyu, the Secretary General of the 
cabinet, summing up the concrete things that have to be done: 
Use the responsibility system to enforce these new objectives; 
create measures for implementing them; get the local 
governments to guarantee financing at levels that will actually 
support these new objectives; make sure that the local 
governments maintain the personnel slots, because the local 
governments, in a sense, effectively hire and pay for these 
birth planning workers. So, those are the crucial issues.
    There is also something that came out last year called the 
Technical Services Regulations, which sounds like it must be 
the most boring thing you could ever imagine. But that is where 
all the nitty-gritty stuff is. In particular, there is the 
question, if you are going to deliver better reproductive 
health care to rural areas, what is the division of labor 
between the birth planning system and the Ministry of Health? 
What the Technical Services Regulations say is that the two of 
those institutions together should create a local service 
network, but Bonnie has already alerted you to the kinds of 
problems that will emerge.
    Bonnie's observations, I think, were extremely astute and 
very on point. This is precisely the kind of thing, oddly 
enough, that we need to understand: Not that there is some 
incident of coercion in some place, but how, as a system, is 
this Technical Services Network being put into place, and what 
does it look like? I am sure in different localities there will 
be a different division of labor between the Ministry of Health 
and the Birth Planning Commission. So, it is going to be a real 
mess, but that is the kind of institutional monitoring question 
that we need to follow.
    Mr. Aird. I think it is necessary to bear in mind, however, 
that coercion is not something that exists in scattered places 
at a lower level. Coercion is still essentially the attitude of 
Li Peng, who still has strong influence in the government.
    It has been reiterated by Jiang Zemin and by Zhang Weiqing, 
both of whom have taken a hard line, both of whom still insist 
that the birth rates will rise again if the pressure is not 
maintained.
    The policy document of March 2, 2000, still reaffirmed the 
importance of the target management responsibility system, and 
the veto with one vote system, and still called for firm hold 
on family planning.
    There are a lot of hard-liners in very important positions 
who do not share the more optimistic view of some of the people 
in the State Family Planning Commission and elsewhere.
    Mr. Winckler. Can I have a 1-second footnote?
    Mr. Wolf. Let me just move on.
    Matt.
    Mr. Tuchow. Well, I have a follow-up question for Mr. 
Winckler, also. When you were giving your remarks, you asked 
for a question or some more time to speak about the law as it 
applies to restraining local State power, and also the 
provision of benefits or the creation of new rights in the law. 
So, I was wondering if you could elaborate on that, briefly.
    Mr. Winckler. Well, fortunately the local state power thing 
feeds right into what we were just discussing. I do not know 
exactly what speeches are being referred to, but, it is true 
that the policy is that the enforcement must remain firm. Our 
government leaders do not normally give speeches in which they 
address issues of what you might call regulatory theory, what 
kind of mechanism is needed to implement a particular kind of 
policy, but in China they do.
    The 2000 Decision says that maintaining a low birthrate 
requires a variety of measures--legal, educational, economic. 
It does include administrative measures, which now are mostly 
stiffer penalties for government employees. It also placed them 
last, which is exactly where they are in Chinese enforcement 
priorities.
    However, if you want to talk about what Jiang Zemin's own 
main personal contribution to this situation is, look at this 
work conference that I keep talking about. It starts right off, 
as a post-
Communist system would do, from the national leader's ideology, 
in this case, Jiang's doctrine of the ``Three Represents,'' 
which we do not have time to go into. Basically Jiang is trying 
to, just like the 2001 law is trying to, legitimize the 
possibility of all sorts of progressive development. What is 
most relevant here is that Jiang Zemin's Three Represents is 
trying to shift policy toward stuff that will give the public 
satisfaction. It is like running for office. They want majority 
support in the country. What is really salient about Jiang 
Zemin's statements on these things, is that he has endorsed the 
slogan that has come out of the State Birth Planning 
Commission, that the basic criteria for their work should be 
public satisfaction.
    Actually, that, oddly enough, does go to your question 
about restraining the local State because the whole point is to 
deliver truly concrete, positive benefits to the citizens--that 
is, reproductive health care, and so forth. Thus another thing 
that Jiang Zemin has said, is that they must, in the future, 
conduct the birth planning program in such a way that it really 
can do that. And to do that, they have to do two things vis-a-
vis the local state.
    If I could just have another little sidebar, you realize 
that since most of this is paid for by local governments and 
the provinces, the central government has a great deal of 
difficulty bringing leverage to bear. They can make 
recommendations for services and create models for 
implementation, but they cannot tell the local governments, you 
must do this. It is like an unfunded mandate. They have to 
persuade the local governments to make the resources available.
    So on the general theme of the relationship between the 
central government and the local state, they want to do two 
things. They want to rein in local abuses. They are in the 
process of reforming the local financial system, not just with 
regard to the birth planning system, but in order to prevent 
the local governments from over-taxing farmers, in general.
    In that context, another concrete thing that is on the 
table at the recent work conference is that the birth planning 
program is now going to have to be funded more out of the state 
budget and less out of miscellaneous local revenues, because 
these miscellaneous local revenues are being rolled into the 
more formal tax system to prevent those miscellaneous 
exactions.
    If I could just toss in one more thing about financing, 
some things should be remembered, with regard to the social 
compensation fee, however obnoxious we may consider it to be. 
In the first place, from the Chinese point of view, at this 
point to demand that they drop this fee is preposterous because 
they just spent the last 20 years responding to the idea that 
they should use market-based incentives instead of Maoist 
coercion and Red Guards. This is their adaptation of incentives 
and disincentives to a ``socialist market economy,'' as they 
call it. They have just been able to work this out. I mean, 
they have spent a long time working this out and it is not 
going to go away very soon.
    But it is a system not only of disincentives but also of 
incentives. One of the things that the social compensation fee 
does is to make resources available to the government to pay 
for things that this extra child will cost the society. In 
addition, a great deal of that money turns around and goes into 
the hands of the people who have restricted their fertility and 
had only one child, as a matter of fairness, because they gave 
up having another child that would have been an economic and 
other benefit to them and out of fairness they deserve some 
compensation.
    So you have flows of funds that have to be arranged 
properly, both for the practical reason to maintain the funding 
for the reproductive health services we are all talking about, 
but also out of 
equity considerations to maintain the public acceptance of the 
program that Bonnie was talking about. I may not have covered 
all your questions.
    Ms. Glick. Can I footnote? The social compensation fee does 
not sound bad to us when we hear it in English. I am not a 
Chinese speaker, but another term is the ``Society is Bringing 
Up Child Fee.''
    That said, the social compensation fees that are levied on 
Chinese families who have out-of-plan births can be 1 to 2 
years' 
combined salary of the husband and wife. It is not just a 
little fine, it is really a very strong financial disincentive. 
So I appreciate the concept of market forces, but it is really 
a tremendous disincentive.
    Ms. Greenhalgh. May I add a quick footnote to something 
that Mr. Aird said a few minutes ago?
    Mr. Wolf. Well, I do not want to start another debate 
because we have been here for about 2 hours. I think we are 
pretty much at the end of this. I did want to ask, John, if you 
had any final comment on this last discussion.
    Mr. Aird. On the social compensation fee. I think that in 
most countries, the idea that the State invests in the 
education and welfare of children is seen not as a way of 
assuming a burden, but rather as an investment in the future. 
Ultimately, the child grows up. If his health is good and he 
acquires skills, he repays the state by being productive.
    It is not seen as something to the disadvantage of the 
State for which parents ought to pay. I do not see any trace of 
that concept behind any mention that I have seen of the social 
compensation fee. I think its real purpose is as a coercive 
measure.
    Ms. Greenhalgh. Can I please respond to that?
    A quick footnote to that.
    Mr. Wolf. All right.
    Ms. Greenhalgh. I think it is really inappropriate to read 
statements by somebody like Jiang Zemin or Li Peng, to the 
effect that we must keep the birth rate down as evidence that 
they are supporting coercion in the sense of forceful measures. 
Population 
control in China, birth planning, has always been about keeping 
the population growth rate down. They will always say that 
until population control is eliminated from China.
    The fact of the matter is, the birth rate is way, way, way 
down, and that is because social change has been so massive. 
What is going on now is walking on two legs, keeping that rate 
stable and improving women's health.
    Thank you.
    Mr. Wolf. Actually, if we were going to spend more time 
here, the issue I would want to discuss is the concept of 
coercion as a tool for attitudinal change, and its impact.
    What is the impact of 10 to 20 years of coercion on 
people's own thought and behavioral processes, and how much 
coercion is needed after that. That will be for another future 
roundtable.
    I want to thank all five of you. This has been a very 
useful, very professional, very learned set of presentations. 
It is a good way for us to start off the next year.
    [Whereupon, at 4:27 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of John S. Aird

                           september 23, 2002
    What is the purpose of China's new family planning law? Why was it 
adopted at this time? What effect is it likely to have on family 
planning in China? Misleading claims about the law are being put 
forward by Chinese family planning officials and by apologists for the 
Chinese program, but its true purpose has been made clear in Chinese 
domestic sources from the start. It is intended to increase the 
government's control over childbearing in order to reduce the numbers 
of births and hold down the rate of population growth. This is quite 
clear from the explanations given in Chinese sources during earlier 
attempts to draft a national law.
                           previous attempts
    These efforts have been under way in China intermittently for the 
past 23 years. In July 1979, as China was tightening the then newly 
announced and highly coercive one-child policy, the leading Chinese 
family planning official at that time, Vice-Premier Chen Muhua, 
disclosed that a national family planning law would soon be adopted 
``to check population growth.'' She explained:

          To quickly and further reduce the population growth rate, the 
        central government is working out a planned parenthood law 
        based on experiences obtained in various localities. A policy 
        of encouragement and punishment for maternity, with 
        encouragement as the main feature, will be implemented. Parents 
        having one child will be encouraged, and strict measures will 
        be enforced to control the birth of two or more babies. 
        Everything should be done to insure that the 
        natural population growth rate in China falls to zero by 2000. 
        (Beijing radio, Domestic Service, July 7, 1979)

    However, the law ran into opposition from some Chinese 
academicians, who argued that popular resistance to the one-child 
policy was too strong for the law to have a positive outcome. As one 
put it,

          If we adopt under these circumstances administrative measures 
        of a forcible command type, such as not registering more than 
        one child in the census records, not issuing food grain 
        allocations for such children, and not allowing their parents 
        to participate in work, the outcome would be contrary to our 
        wishes, have bad aftereffects, and in fact not be admissible in 
        a socialist state. (Gui Shixun, ``Population Control and 
        Economic Policies,'' Shanghai Teachers' University Journal, 
        April 25, 1980)

    A Beijing newspaper noted that

          Some people believe that family planning should be carried 
        out with encouragement and education, not with coercion. They 
        therefore disapprove the formulation of a family planning law.

    The article continued:

          Laws have the nature of enforcement, but enforcement is not 
        the same as 
        coercion. It is exactly for eliminating coercion which has 
        arisen in some areas when they carry out concrete work that a 
        family planning law must be promulgated to for all people, 
        young and old alike, to abide by. (Guangming Daily, 
        August 29, 1981)

    The writer was clearly suggesting that adoption of a family 
planning law would legitimize coercion by reclassifying it as law 
enforcement.
    In 1983 another writer in a journal for foreign readers argued that

          Since different people have different levels of 
        understanding, education alone . . . cannot fully solve this 
        very urgent problem. Therefore, China plans to draft a family 
        planning law. For the time being, the local governments in 
        various places have introduced economic and administrative 
        measures. (An Zhiguo,''Family Planning,'' Beijing Review, 
        August 29, 1983)

    The ``administrative measures'' referred to included the massive 
campaign of compulsory birth control surgeries carried out in 1983, 
which reportedly produced 18 million IUD insertions, 21 million 
sterilizations, and 14 million abortions. This campaign was directed by 
the then Minister-in-Charge of China's State Family Planning Commission 
(SFPC), Qian Xinzhong, who later that year was given one of the United 
Nation's first two family planning awards for his achievement. However 
the authorization had come from Deng Xiaoping, then the supreme leader 
of China, who called upon family planning personnel to ``rely first on 
political mobilization, second on law, and third on technical 
measures'' (the last phrase a euphemism for the three birth control 
surgeries).
    After 1983, 5 years passed without any mention of a national family 
planning law in the Chinese media. The year 1984 had seen a sudden 
change in policy away from coercive measures, caused by a strong 
popular backlash against the 1983 surgery drive, which allegedly had 
resulted in ``the alienation of the masses from the Party.'' Coercion 
had to be put on hold. It was no time to pass a law to augment 
compulsion in family planning. Qian was removed from his post as head 
of the SFPC in December 1983, and replaced by a new head, Wang Wei, who 
immediately announced a change in policy. Early in the next year the 
Party Central Committee issued a new ``Decision'' which called for a 
``more realistic'' family planning policy which is ``reasonable, is 
supported by the masses, and is easy for the cadres to carry out.''

          This requires that family planning workers do a great deal of 
        difficult, in-depth, and meticulous work, improve their work 
        method and work style, refrain from coercion, strictly forbid 
        any illegal or disorderly action, and carry out their work 
        consistent with actual conditions and reasonably. (People's 
        Daily, March 8, 1984)

    The call to refrain from coercion was made official in a national 
``circular'' known as Party Central Committee Document No. 7, which was 
issued on April 12, 1984, widely circulated, often quoted in the 
Chinese media, but never published. But the effect was immediate. A 
general relaxation of family planning enforcement spread throughout the 
country.
    Within 2 years, the central authorities began to be concerned about 
evidence of rising birth rates. By the end of 1985, Document No. 7 was 
reinterpreted as a call take ``effective measures,'' ``grasp family 
planning work firmly,'' be ``resolute in curbing ``unplanned'' births, 
and fulfill the population control targets. In May 1986 a new Party 
circular, Document No. 13, also unpublished but widely distributed, 
apparently reversed the softer components Document No. 7 and reaffirmed 
the need to regain control of population growth.
    The task proved difficult. Central wavering on the coercion issue 
seemed to have weakened control at the grassroots level, and it was not 
easy to regain. In 1988 talk of adopting a national family planning law 
resumed. An article in a demographic journal noted that local family 
planning efforts had become confused and inconsistent, birth reports 
were being falsified, and family planning rules were being violated. 
The writer proposed that the government

          . . . Formulate and promulgate a family planning law as soon 
        as possible to change the situation of no laws to abide by. 
        Births outside of plans can only be controlled with persuasion 
        and education on the one hand and with the adoption of the 
        necessary administrative and legal measures on the other hand. 
        (Qu Yibin, ``An Enquiry into the Causes of the Marked Rise of 
        China's Population Birth Rate and Measures to Deal with It,'' 
        Population Research, March 29, 1988)

    In January 1989, a family planning journal article said that a new 
law was 
``imperative'' to strengthen the resolve of family planning workers. 
The provincial family planning regulations were inadequate for this 
purpose:

          . . . Without having formal laws, the rural cadres at the 
        grass-roots level are always worried. They are fearful that 
        things will change. This greatly [inhibits] their activism. . . 
        (Wang Shengduo and Wu Yiren, ``The Dilemma of the Village 
        Cadres in Rural Family Planning Work and Measures to Deal With 
        It,'' China Population, January 20, 1989)

    In August a writer with provincial Party connections, though he 
objected to some compulsory measures, such as smashing down houses, 
confiscating farm implements, and refusing household registration to 
unauthorized newborns, insisted that compulsory abortion was both 
humane and legal, since it was an expression of the Chinese 
Constitution's provision that ``both husband and wife have a duty to 
practice family planning.'' A national family planning law, he said,

          . . . should use the forceful intimidation of punishment to 
        reduce the opposition to compulsory abortion. . . . The state 
        has grounds to adopt legal measures for compulsory enforcement 
        against those who are unwilling to carry out their duty of 
        practicing family planning. (Kuang Ke, ``Some Suggestions on 
        Passing Laws on Childbirth,'' Social Science, August 15, 1989)

    Though few published commentaries echoed this writer's idea of 
legalizing coercion, most, including prominent demographers and other 
influential spokespersons, seemed to think the law would strengthen 
family planning enforcement and urged its adoption ``as soon as 
possible.''
    Madame Peng Peiyun, who had replaced Wang Wei in January 1988, was 
quoted by XINHUA in February 1989 as saying that the situation in 
family planning work had become ``crucial'' and that a national law was 
being drafted which would go before the State Council ``as soon as 
possible.'' (XINHUA-English, February 23, 1989)
    In April, however, another XINHUA article questioned the wisdom of 
this step:

          Now, more and more experts are asking the state to accelerate 
        the introduction of [a] family planning law. But many family 
        planning officials are not optimistic about the results of such 
        action. An official of the State Family Planning Commission 
        says, ``As long as such a great number of people ignore the 
        law, what can the law do to them? (XINHUA-English, Beijing 
        April 13, 1989)

    Nevertheless, in October 1989 Madame Peng told reporters that the 
draft law on family planning ``will be enacted in October next year.'' 
(ZHONGGUO TONGXUN SHE, Beijing, October 17, 1989)
    It wasn't. In November 1990 the China Daily reported that family 
planners were still calling for a family planning law ``as soon as 
possible'' to make family planning policies ``more authoritative and 
forceful.'' (``Planners Urge Firmer Control of Population,'' November 
14, 1990, p. 4) In May 1992 a demographic journal commented

          For one reason or another, our country still has no family 
        planning law. According to public opinion in our society, most 
        people are sympathetic with those having extra children. They 
        are not inclined to support the basic national policy. Under 
        such circumstances, family planning in some localities has 
        become a task that almost no one wants to attend to and take 
        care of. (Li Shaoxian, ``Farmers' Desire for More Children and 
        Measures to Solve This Problem,'' Population Research, May 29, 
        1992)

    A number of articles candidly discussing the issue of coercion in 
family planning appeared in Chinese professional journals during the 
middle 1990's, some of them opposing coercion and others approving 
coercive measures. One of the latter appeared in April 1993 in a 
national law journal. Its authors deplored the fact that because of the 
lack of an explicit national law legalizing forcible means, ``some 
forcible measures which could have become legal have become illegal. . 
. . Meanwhile, it is impossible to totally avoid using forcible 
measures in practice.'' The article adds:

          In addition to ordinary economic and administrative 
        sanctions, it is also necessary to have legal rules providing 
        for relevant forcible, restrictive measures to deal with the 
        situation of being pregnant and preparing to give birth after 
        having had two births, such as rules which explicitly provide 
        for forcible termination of pregnancy, forcible induced 
        abortion, or induced abortion. It is necessary to forcibly 
        sterilize those couples who have failed to be sterilized or use 
        contraceptive measures after having each had two births. 
        Forcible and restrictive measures constitute an issue which 
        critically affects whether family planning work can be 
        effectively carried out. If there are no relevant legal rules, 
        then it would be difficult to eliminate the stubborn problems 
        in family planning work. Therefore there should be no hesitancy 
        on this issue. . . .
          To get family planning work out of the predicaments, both 
        cadres and ordinary people urgently hope there will be a 
        uniform family planning law so as to use the state's policy on 
        birth; and such a law can then be used to regulate and adjust 
        the activity of reproduction of human beings. . . . (Yang 
        Quanming and Yuan Jiliang, ``Thoughts on Family Planning 
        Legislation,'' Politics and Law Tribune, No. 50, April 1993, 
        pp. 89-93.)

    One of the things that concerned these authors was that foreign and 
domestic criticism that the Chinese government had ``violated human 
rights'' in family planning had caused people in China to ``worry that 
restricting citizens' reproductive rights is incompatible with the 
constitution-stipulated protection for human rights,'' and these 
worries ``have all along been creating difficulties for conducting 
thinking on family planning legislation.'' . . .
    When the SFPC's ``Outline'' of family planning work was published 
in February 1995, the task still lay in the future. In fact, it sounded 
more remote than ever:

          We must conscientiously do a good job of making preliminary 
        preparations for the drafting of the ``PRC Family Planning 
        Law,'' make proposals on population and family planning 
        legislation, and provide legal guarantees for the 
        implementation of family planning. (People's Daily, February 
        25, 1995, p. 11)

    Still, nothing happened. Four years later a Hong Kong newspaper 
speculated that ``a draft law specifying a citizen's rights to have 
children now looks unlikely to be ever passed by the National People's 
Congress (NPC).'' The writer seemed to think passing such a law would 
undermine the pretense of the Chinese leadership that their family 
planning program was voluntary. (Jasper Becker, South China Morning 
Post, April 19, 1999, p. 17)
                           the law's adoption
    That surmise was also mistaken. In September 1999 a vice-minister 
of the SFPC predicted that the long-awaited law would be enacted within 
the next three years and that it would ``tighten the rule of law in 
carrying out family planning and strengthen mass supervision over law 
enforcement in the next decade.'' By 2015, he predicted, the rule of 
law in China would be greatly improved and ``by then, people of 
reproductive age would follow the state family planning policy 
voluntarily,'' an implicit admission that their compliance now was not 
entirely voluntary! (China Daily, internet version, September 13, 1999) 
In December 2000 XINHUA quoted Zhang Weiqing, who had replaced Peng 
Peiyun in March 1998 as head of the SFPC, to the effect that the long-
promised national law would be drafted in 2001:

          China will draft up a law on population and family planning . 
        . . next year to ensure the status of the national policy of 
        family planning and the realization of birth control targets, 
        said an official. At a conference on family planning, Zhang 
        Weiqing . . . said that lawmaking in the field of population 
        and family planning in China is still backward and the force of 
        existent laws and regulations is limited. (XINHUA, Beijing, 
        December 24, 2000)

    Zhang's prediction did come true. In April 2001 the People's Daily 
revealed that the draft law had been tabled before the Standing 
Committee of the NPC. In introducing the measure to the Committee, 
Zhang explained that the law was ``indispensable'' for ``upholding 
existing birth control policies'' because the issue is ``very 
sensitive'' and ``the traditional concept of having more children 
remains influential.'' (People's Daily internet version, April 24, 
2001)
    Throughout the 23 years of its gestation, the essential rationale 
for the national family planning law was unmistakable and remained 
unchanged. It was to strengthen enforcement of the existing family 
planning policies and reinforce government control over childbearing in 
order to overcome stubborn popular resistance. The law was seen as an 
additional means of compulsion. Not until 2002 did anyone try to 
represent it as an effort to curb coercion, and that representation was 
largely 
confined to statements for foreign audiences.
    However, when the new law was made public at the end of December, 
the official propaganda line explaining its purpose had already begun 
to change. On December 30, 2001, the day after its adoption by the NPC 
Standing Committee, Zhang Weiqing said that ``the law neither relaxes 
nor tightens population policy.'' (XINHUA-English, Beijing, December 30 
2001) In January 2002 another SFPC spokesperson quoted by a Hong Kong 
newspaper said that the new law ``solidly sets forth China's current 
family planning policy, and there will be no tightening up nor 
liberalization.'' (Ta Kung Pao, Hong Kong, January 21, 2002) But these 
statements made no sense. Why would the Chinese government have 
struggled for 23 years to pass a law that made no difference in how the 
program was implemented? The only plausible purpose for the law was to 
tighten controls. In denying that this was 
intended, the Chinese authorities were being disingenuous.
    They may have been reacting to widespread reports of spectacular 
instances of coercion in the program since the late 1990's, some of 
them involving the death of family planning violators under torture 
and, in two cases, attempts by local family planning officials to kill 
live-born infants who had been conceived without birth permits. One of 
these involved the deliberate drowning of a newborn baby boy in a paddy 
field. In the other case, several attempts by a hospital director to 
kill a newborn baby girl failed, and the child survived. More recently 
the efforts to ``sanitize'' the law retroactively may have been 
stimulated by the disclosure in October 2001 that a private 
investigative team sent to China by a Washington organization with 
anti-abortion connections had found coercive measures still in force in 
one of the UNFPA's project counties, where such measures were supposed 
to have been abolished. This report embarrassed both the Chinese 
government and the UNFPA, and the UNFPA hastily put together an 
``independent'' team with close U.N. connections to go to the same 
county obviously with the intent of finding no coercion, which, hosted 
and escorted by both the government and the UNFPA, it naturally did not 
find. After the report of the U. S. State Department investigative 
team's visit to China in May 2002, released in July, confirmed the 
persistence of coercive measures in China, it was obvious that China's 
new law needed to be given a softer image. Hence the subsequent 
official statements from Chinese sources disavowing the only reasonable 
raison d'etre for such a law!
    Giving the law a ``kinder, gentler'' image was not easy to 
accomplish, mainly because the text of the law, which conveys a rather 
hard-fisted impression, as will be pointed out in detail below, was 
already finalized and was published in December 2001. Some foreign 
observers immediately rejected the official assurances that the law 
would not affect the intensity of family planning implementation. In 
January 2002 a Hong Kong newspaper said flatly that:

          The legislation basically incorporates current policy and 
        practice. . . . Analysts say China is unlikely to see a major 
        departure [from] or relaxation of the coercive one-child 
        policy. . . . The legislation has failed to prescribe detailed 
        prohibitions against the well-documented abuses that have been 
        perpetrated in the name of the policy, analysts said. (Clara 
        Li, South China Morning Post, January 5, 2002)

    Two months later, perhaps partly in response to such skepticism, 
the Chinese 
authorities seem to have decided to try to represent the law as a human 
rights document. In an English language dispatch, clearly targeted at a 
foreign audience, XINHUA asserted that NPC delegates were saying that

          The law emphasizes the principle of human care and prohibits 
        coercion, abuse of powers, and infringement on people's 
        legitimate rights and interests. . . . ``The law requires that 
        officials in charge of family planning change their work 
        style,'' said [a Sichuan family planning commission director]. 
        (XINHUA-English, Beijing, March 13, 2002)

    The law itself gives little encouragement for any such notions. 
Moreover, only 5 days after that, former Premier Li Peng, always a 
hard-liner on birth control, presented the annual work report of the 
NPC Standing Committee in which he said nothing about avoiding 
coercion. Referring to the new law, he said:

          . . . The NPC Standing Committee enacted the Law on 
        Population and 
        Family Planning, thereby upgrading this basic national policy 
        into a law. This is set to have a profound and far-reaching 
        impact on effectively controlling the size of the population 
        and improving the quality of births. (XINHUA, Domestic Service, 
        Beijing, March 18, 2002)

    The propaganda effort continued , however. In April, Wang Zhongyu, 
secretary general of the State Council, warned that family planning 
personnel must

          . . . improve their working style and method, and ensure that 
        laws are understood, observed, and followed in regulating 
        administrative actions in family planning. (XINHUA, Nanchang, 
        April 8, 2002)

    Wang also called for the amendment of local family planning 
regulations to bring them into conformity with the national law and to 
``ensure the continuity and stability of family planning policy.'' This 
news item was NOT directed at a foreign audience. The Chinese 
authorities now seemed to be speaking with two voices even to domestic 
audiences, a sign of confusion in official circles.
    More mixed signals emerged as the new law was about to go into 
effect on September 1. 2002. The day before, a XINHUA-English dispatch 
quoted a Beijing professor saying the law would represent a milestone 
in China's transformation from ``the administrative-guided period into 
a new era that puts public satisfaction as top priority.'' (XINHUA-
English, Beijing, August 31, 2002) But the XINHUA domestic dispatch on 
the same subject said nothing of the sort! Instead, it quoted Zhang 
Weiqing in a statement that the new law must be publicized so that 
everyone would

          . . . understand the importance of stabilizing the 
        childbearing policy currently in force, gain a better 
        understanding of citizens' rights and obligations to practice 
        family planning, understand the legal provisions concerned, and 
        enhance their consciousness in practicing family planning. 
        (XINHUA, Domestic Service, Beijing, August 31, 2002)

    The next day, a XINHUA-English dispatch quoted Zhang as saying that 
the new law ``focuses on the all-around development of human beings.'' 
The article went on to say that ``it also strictly prohibits the abuse 
of authority, illegal administration, coercive imperatives, and other 
practices infringing on the interests of citizens during family 
planning.'' (XINHUA-English, Beijing, September 1, 2002)
    The Hong Kong English language newspaper South China Morning Post 
quoted Zhang Weiqing as having said that the new law would ``help end 
abuses such as late abortions and arbitrary fines,'' but statements 
attributed to Zhang in domestic sources said nothing about curbing 
abuses. (``New family planning law might end abuses,'' South China 
Morning Post, September 2, 2002) In fact, late-term abortions have long 
been not only approved but required for unauthorized pregnancies that 
had not been detected earlier in the pregnancy. In domestic regulations 
such abortions are not called ``abuses''--instead, they are called 
``remedial measures.''
    A September 1 XINHUA domestic dispatch quoted the Deputy Director 
of Legislative Affairs Office of the State Council as saying:

          . . . It is a misconception to think that China will relax 
        its family planning policy, a change that would permits its 
        citizens to have as many children as they would like as long as 
        they are able to pay the fine imposed for an extra-policy 
        birth.

    The article continued:

          Zhao Bingli, Vice-Minister in Charge of the SFPC, said the 
        law was made to ensure the control of the country's population 
        and thus to guarantee the harmonious co-development of 
        population, economy, society, and environment.
          ``The mentality of 'money for children' goes against the core 
        principle of the family planning legislation,'' Zhao said. 
        ``From the date that the law took effect, those who have an 
        extra-policy birth must face the music.'' (XINHUA, General News 
        Service, Beijing, September 1, 2002)

    From these strange contradictions, one might have supposed the 
references were to two different laws! Actually discrepancies between 
Chinese pronouncements in domestic channels and those addressed to 
foreigners are often highly revealing. China scholars have long been 
aware that English language publications can present a very different 
picture of a controversial issue from that found in the 
Chinese version. Usually, the Chinese language version is the more 
reliable and the more informative. What that version omits is 
misleading propaganda devised for foreign consumption that could not 
possibly deceive a domestic audience.
    All that aside, why did the Chinese authorities decide to adopt a 
national family planning law at this time despite all their former 
misgivings? One possibility is that they felt that their grip on family 
planning enforcement was slipping and they needed all the legal force 
they could muster. In fact, there are signs that at least since the 
late 1990s, the Chinese political system has been gradually losing its 
effectiveness in all spheres of domestic administration, not just in 
family planning. This is apparent in the leaders' increasingly paranoid 
reaction to any spontaneous citizen action, especially any collective 
action, that takes place without official prompting or control. That 
reaction may explain the Chinese government's violent persecution of 
the Falun Gong cult and other religious groups not under state 
supervision and control. The leaders seem to fear any form of 
dissidence or civil disobedience, and they are ruthless in their 
attempts to crush all such manifestations.
    They have also expressed concern recently that losing control of 
population growth could lead to social ``instability.'' Exactly how is 
not spelled out, but Chinese demographers, SFPC leaders, Peng Peiyun, 
Zhang Zemin, and Jiang Zemin himself have been saying since at least 
1994 that the birth control policy was in conflict with the 
childbearing desires of the Chinese people, especially those in rural 
areas, hence the current low birth rates in China are ``unstable.'' On 
March 11, 2001, Jiang Zemin himself affirmed that population control 
was a ``major affair for strengthening the country, enriching the 
people, and maintaining tranquility.'' Jiang called for ``really 
effective measures'' and demanded that the country ``grasp ever more 
tightly and do still better this major item of economic and social 
work, without the slightest slackness or relaxation.'' (XINHUA, 
Domestic Service, Beijing, March 11, 2001) Presumably the new 
population law was seen as helping the government tighten its 
``grasp.'' The language of the law in many places, even where it sounds 
intentionally vague, seems to point in that direction.
                          specific provisions
    When the text of the law was made public, it immediately began to 
receive close scrutiny both in China and abroad. Some of its provisions 
apparently caused problems for the UNFPA. In February 2002 the UNFPA 
Executive-Director, Thoraya Obaid, sent a letter to Zhang Weiqing 
expressing ``reservations'' about provisions in three articles that she 
alleged were inconsistent with ``ICPD principles and recommendations.'' 
She said the UNFPA would seek ``further clarifications,'' surely a very 
mild remonstrance! The three articles are: Article 18, which proposes 
to ``stabilize the current childbirth policies,'' speaks of ``upholding 
a single-child policy for married couples,'' and reaffirms that couples 
must have government permission before they can have a second child; 
Article 41, which provides for the imposition of a ``premium'' on 
unauthorized childbirths; and Article 42, which says that in addition 
to the ``premium'' a state functionary ``may also be punished 
administratively.''
    Curiously, the UNFPA raised no objections to a number of other 
articles which seem to contain hints of coercion or at least seem to be 
contrary to the principles of reproductive freedom. For example:

        <bullet>  Article 2 says ``The state shall employ a series of 
        varied measures to place the population growth under control,'' 
        but it does not set any limits on the kinds of measure alluded 
        to, an ominously vague and wide-open provision;
        <bullet>  Article 10 authorizes the formulation of population 
        plans at various levels and calls for supervision over the 
        ``implementation'' of these plans, but population plans in 
        China have always been the foundation of population quotas and 
        targets and an essential part of the coercion mechanism;
        <bullet>  Article 17 couples a citizen's right to give birth to 
        a child with the idea that citizens are also ``duty-bound to 
        undergo family planning, as provided for in the law,'' thus 
        implying that citizens have a right to have only as many 
        children as the government family planning policy permits them 
        to have;
        <bullet>  Article 20 says that ``husbands and wives of 
        childbearing age shall consciously employ family planning, 
        contraceptive, or birth control measures, accepting family 
        planning technical services and teachings, in order to prevent 
        an unintentional pregnancy or reduce its chances,'' which 
        precludes the option of NOT practicing family planning hence 
        constitutes a direct infringement on 
        reproductive freedom (``unintentional'' by whose standards?);
        <bullet>  Article 12 says that village and neighborhood 
        committees ``shall press ahead with family planning, with 
        unreserved efforts, and in accordance with the law,'' which has 
        a somewhat relentless sound that is undoubtedly intentional;
        <bullet>  Article 34 talks about ``urging husbands and wives 
        who already have a child or children to adopt permanent birth 
        control measures, a reference to IUDs and sterilization. 
        Moreover, in the past ``urging,'' ``advocating,'' 
        ``promoting,'' and ``persuading'' have often culminated in 
        brute force when noncompliance 
        continued;
        <bullet>  Article 11 says ``Specific population and family 
        planning measures shall 
        provide for detailed population control quotas. . .'' Here the 
        language undisguised and quite unambiguous. One might have 
        supposed this provision would have caught the UNFPA's 
        attention, inasmuch as the agency has been saying that it is 
        encouraging an abandonment of targets and quotas not only in 
        the 32 counties where it has current projects but all across 
        the country.

    One wonders why the UNFPA expressed no concern about these 
articles? Why don't they also need ``clarification''?
    The lack of specificity of many of the law's provisions is in 
itself a reason for suspicion. Some articles, in contrast, are highly 
explicit, notably those which condemn actions that disrupt or weaken 
program implementation. For example:

        <bullet>  Article 36 is quite specific about penalties for 
        those who gain ``illegal'' income by helping people evade 
        family planning rules, including performing ``illegal'' birth 
        control surgical operations, using ultrasound to detect and 
        abort female fetuses, and performing phony birth control 
        operations, conducting false pregnancy checks, or issuing false 
        birth control certificates;
        <bullet>  Article 37 specifies penalties for those who falsify 
        birth control certificates or issue them ``illegally,'' 
        presumably to people who do not qualify for them--not much 
        ambiguity there;
        <bullet>  Article 39 provides for the punishment of state 
        functionaries who engage in several kinds of activities, 
        including ``doing wrong to serve friends or relatives,'' 
        ``seeking or accepting a bribe,'' diverting family planning 
        funds for other purposes, and falsifying population and family 
        planning statistical reports--nothing very vague there either;
        <bullet>  Article 40 which provides for administrative 
        punishment of the leadership of local units which ``refuse . . 
        . to assist in a family planning process as required . . .,'' 
        apparently a reference to the long-term policy of holding local 
        leaders responsible for the success of family planning in their 
        units. This is not fully explicit but it does not need to be. 
        Local leaders in China would have no trouble knowing what it 
        means;
        <bullet>  Article 43 which provides for the punishment of those 
        who oppose or obstruct an administrative department. This is 
        not specific, but given its purpose it needs to be broadly 
        construed, since popular opposition to birth control takes so 
        many different forms.
        <bullet>  Article 22 should also be cited as one of the more 
        specific. It prohibits 
        ``discrimination against and maltreatment of women'' who give 
        birth to girls, which the government has long recognized as a 
        form of opposition to the family planning rules.

    The seven articles of Chapter Four of the law (Articles 23 through 
29) which 
provide for rewards and incentives for those who comply with family 
planning requirements are also in most cases relatively specific, and 
they resound with serious intent.
    On the other hand, the articles which purport to offer some sort of 
protection for the rights of citizens are particularly vague. For 
example:

        <bullet>  Article 4 says that family planning is to be 
        conducted ``in strict accordance with the law, in a civilized 
        manner, and without infringing upon citizens' legitimate rights 
        and interests,'' but does not indicate what constitutes an 
        ``uncivilized'' manner or what rights of citizens are 
        ``legitimate;''
        <bullet>  Article 21 says that couples of childbearing age 
        ``shall enjoy free of charge basic family planning technical 
        services,'' which of course include the three basic birth 
        control surgeries that have not always been so enjoyable for 
        recipients in the past because these were mandatory. To present 
        the surgeries as a service to be enjoyed is more than a little 
        bit cynical;
        <bullet>  There is also one provision under Article 39 that 
        condemns ``infringing upon a citizen's personal rights, 
        property rights, or other legitimate rights and interests.'' 
        This may be an attempt to discourage certain kinds of coercion, 
        such as knocking down houses and confiscating farm implements, 
        which have in the past been recognized by the central 
        authorities as counter-productive because they arouse the 
        collective anger of citizens and lead to setbacks in family 
        planning work. But this provision could have been made more 
        explicit, unless perhaps its vagueness was meant to allow 
        wiggle room in case the government later decided that it did 
        not wish to come down too hard on cadres who used such tactics.
        <bullet>  Finally, Article 44 provides that citizens and 
        organizations may ``apply for reconsideration of an 
        administrative decision or file a lawsuit against an 
        administrative decision, after considering that an 
        administrative organ [has] infringed upon their legitimate 
        rights and interests during a family planning process.'' Again, 
        the meaning of this provision depends upon a precise definition 
        of the ``rights and interests'' of citizens, which the law does 
        not provide. Even with such a definition, a plaintiff appealing 
        under this provision may get nowhere if the local courts, on 
        prompting of administrators at some higher level, simply refuse 
        to hear him, as has often happened in the past. A more explicit 
        law might have made it harder for them to dismiss such appeals, 
        but the vagueness here allows them considerable latitude in 
        ruling specific citizen complaints out of order.

    If the new law was meant to curb coercion in family planning, it 
could have done so almost instantly without the necessity of any 
judicial process, simply by explicitly demanding coercive tactics 
widely used in the past that must cease at once and imposing penalties 
on those who continue to use them. The law does not do that.

        <bullet>  It does not prohibit forced IUD insertions, forced 
        subcutaneous implants, forced abortions, or forced 
        sterilizations.
        <bullet>  It does not prescribe penalties for cadres or 
        officials who authorize, condone, or carry out such measures.
        <bullet>  It does not prohibit exorbitant fines for family 
        planning violators.
        <bullet>  It does not condemn the use of administrative 
        harassment of violators which is often applied to them in 
        addition to other penalties.
        <bullet>  It does not prohibit the widespread practice of 
        detaining pregnant women, their spouses, or their other 
        relatives to force them to submit to abortion, sterilization, 
        or other unwanted procedures.
        <bullet>  It does not prohibit the killing of unauthorized 
        infants by medical personnel at the time of delivery or within 
        the next few days, a practice that has been reported in the 
        international media several times in the past 3 years.
        <bullet>  It does not prohibit the use of torture to extract 
        confessions or information from family planning violators, 
        which has sometimes resulted in their death while in detention, 
        as has also been documented in foreign press reports.
        <bullet>  It does not repeat or even allude to the particularly 
        offensive coercive tactics discouraged by the so-called ``Seven 
        Prohibitions'' circular issued by the SFPC in July 1995, which 
        ruled out punitive measures that provoked popular unrest and 
        damaged family planning work.
        <bullet>  It does not even mention the word ``coercion'' or 
        advise cadres to ``improve their work style,'' expressions 
        which in appeared in the brief anti-coercion campaigns of 1978, 
        1980, and 1984, and which, as noted above, again reappeared 
        briefly in several domestic news items in March and April of 
        this year.

    Nor does the law affirm any of the basic principles of reproductive 
freedom supposedly endorsed by China along with other nations at the 
1994 Cairo World Population Conference, although this would be the 
place for such an affirmation if the Chinese government were serious 
about implementing them. It does not acknowledge ``the rights of 
citizens to determine the number and spacing of their children'' or 
their right to choose their own form of contraception, presumably 
because these rights go beyond what the Chinese authorities wish to 
recognize as ``legitimate.'' To have included such language in the law 
would have caught the imagination of the people throughout the country 
and led to a virtual rebellion against the family 
planning program as presently implemented. Reproductive freedom might 
have suddenly become a reality for most Chinese couples of childbearing 
age. The Chinese government clearly has no intention of taking that 
risk, and the UNFPA and other apologists for the program seem 
disinclined to make an issue of the matter.
    How the new law will play out in the next few years remains to be 
seen. It is possible that a show of suppressing the more flagrant forms 
of coercion will take place in the near term, at least until world 
attention becomes preoccupied elsewhere. But then the emphasis will 
probably shift back to requiring citizen compliance with family size 
limits, targets, quotas, and plans, and the argument will be advanced 
that family planning is now not just a policy but a law which citizens 
must obey. Whether the law's domestic advocates, who expect this will 
make for more compliance, or its domestic critics who think it will 
inspire more defiance, will be proven correct may not be clear for some 
time. For the moment, however, the advocates have prevailed.
    Taking all the evidence so far into account, one conclusion is 
inescapable. The basic purpose of the new law is to reinforce 
population control in China. Ultimately that control will probably be 
lost despite government efforts to hold onto it, but the new law is 
clearly meant to delay the attainment of true reproductive freedom in 
China as long as possible.
                                 ______
                                 

                   Prepared Statement of Bonnie Glick

                           september 23, 2002
    Commission members, esteemed colleagues:
    At the beginning of May, I traveled to China as a member of a 
three-person team selected by the White House to conduct an assessment 
of whether the U.N. Population Fund (UNFPA) has supported or 
participated in the management of a program of coercive abortion or 
involuntary sterilization in the People's Republic of China. These 
concerns were codified in 1985 in U.S. legislation known as the Kemp 
Kasten Amendment. Since 1998, the Chinese State Birth Planning 
Commission has conducted a special program with UNFPA participation in 
32 of the PRC's approximately 2800 counties under an agreement signed 
by the State Birth Planning 
Commission and the UNFPA on September 11, 1998.
    Given the controversy which has existed in the Congress on the 
issues of coercive abortion and involuntary sterilization, great 
emphasis was placed on making this a mission of objective fact-finding 
and assessment.
    Prior to our departure for China, we met in the State Department 
with a variety of U.S. Government officials. We also met with the 
Executive Director of the UNFPA, U.N. Undersecretary General Madame 
Thoraya Ahmed Obaid and with Mr. Scruggs as well as with Steven Mosher, 
President of the Population Research Institute and with Mr. Aird. 
Finally, we met with several Members of Congress and/or their staff 
members.
    On May 12, we departed for Beijing for a 2-week assessment visit. 
In Beijing, we paid a courtesy call on U.S. Ambassador Randt then had 
extensive discussions with Minister Zhang Weiqing, Chairman of the 
State Birth Planning Commission as well as with Ms. Siri Tellier, the 
Director of the UNFPA Country Office in Beijing. We met with Chinese 
academics specializing in population and demographics as well as with 
students and NGO representatives involved in Chinese population 
matters.
    Following this overview of the population situation in China, we 
began our travels through 5 of the 32 UNFPA counties. The five counties 
were selected by the U.S. Embassy, and they represented a cross-section 
of urban and rural, poor and middle income. During the next 10 days, we 
traveled approximately 6000 miles, by air and road, through urban and 
rural China. The five counties visited were Rongchang County (100 km 
outside Chongqing Municipality), Pingba County (2.5 hours from Guiyang 
in Guizhou Province), Xuanzhou County (in Anhui Province), Guichi 
County (in Anhui Province), and Sihui City (in central Guangdong 
Province). We were accompanied on our travels by a fluent Chinese-
speaking member of the U.S. Embassy, by an interpreter, Ms. Ying Yu, a 
naturalized American citizen of Chinese origin, and by Mr. Hongtao Hu, 
a member of the State Birth Planning Commission. Mr. Hu received no 
more than 24 hours advance notice of our daily travel plans. Our visits 
were often unannounced and with no notice. We stopped in at three 
factories, two schools, 11 village Birth Planning substations, five 
municipal Birth Planning centers and three hospitals. I held 
discussions with women in the streets and agricultural fields who were 
going about their daily lives.
    I went to China with open eyes, with an objective point of view, 
and with a narrow mandate. We went to as many counties and as many 
villages as possible. We also made a variety of unscheduled stops. 
Although our sample size was small (5 out of 32 possibilities), I 
believe the results are representative in that we varied our 
methodology through random visits, and with little to no notice given 
to Chinese government authorities, thereby decreasing biases in the 
observed data.
    I would like to address the conversations I had with women 
throughout our travels. In my years as a Foreign Service Officer, I 
often found that women around the world, particularly women in 
societies that tend to be dominated by men, are willing to open up to 
foreign women to discuss personal issues. There is a commonality of 
interests and experiences. This was as true for me in rural Ethiopia 
and Nicaragua as it was in rural and urban China.
    Thus, in speaking with Chinese women, I was able to elicit direct 
and thoughtful responses to probing questions. Culture played an 
enormous role in these conversations. Often I found myself asking 
indirect questions in order to obtain genuine responses such as, ``How 
many children do you plan or hope to have?'' ``How do you feel about 
the policy of the Chinese government that ostensibly limits your 
ability to have more than one child?'' ``Do you know any women who have 
been coerced to have abortions or forced, involuntarily, to become 
sterilized?'' ``Do you know anyone who has to pay Social Compensation 
Fees because she had more than one child?''
    If I sensed that a woman, particularly a professional woman in one 
of the health clinics, was suspicious of my line of questioning, I 
would change the way in which I asked my questions. I might ask her, 
``Perhaps not in this county, but have you heard of women in other 
counties who might have been coerced to have abortions or 
sterilizations?''
    In one pharmaceutical manufacturing and packaging factory, I had 
the opportunity to talk to a group of 15 or so women all working on an 
assembly line. We talked as they packaged pharmaceuticals. The 
conditions in which they were working were good, clean, and 
comfortable. They considered themselves lucky to have these stable 
jobs. When I asked them questions about their family planning 
practices, nearly all said that they had just one child. One woman had 
two children, 
several had none. All commented that it is expensive to raise children.
    I met with two women in a health clinic in Rongchang County who had 
just had abortions due to pregnancies arising, they said, from failed 
contraception. I asked each of them why they chose to abort. The first 
woman said that she already had twins and neither wanted nor could 
afford a third child. She and her husband, she said, were happy with 
their two children and they had not planned on a third. The other 
woman, a 22 year old, said that she and her husband were not yet ready 
to have children. They themselves were children, she said, and she 
wanted to wait until she was ready for a ``perfect'' birth.
    The Chinese government, it seems to me, through public service 
announcements in all forms of media, has convinced women of the merits 
of marrying late, delaying births, and focusing on a ``perfect'' birth. 
What is a ``perfect'' birth? This is a potentially dangerous question 
to ask. Since abortions are legal in China, women take great care to 
ensure that the fetuses they carry are perfect. If they fear that a 
fetus is in any way less than perfect, the inclination among Chinese 
women is to abort. While the practitioners with whom we met said that 
they do not promote abortion as a form of birth control, they were well 
aware that many women abort rather than ``waste'' their one opportunity 
to give birth on a less than perfect child.
    As many of us are aware, this has, no doubt, led to the skewed 
gender ratios in Chinese births. With 116 male children born for every 
100 female children, the numbers speak for themselves. This skewed 
birth ratio, when considered among a population of 1.3 billion people, 
demonstrates that the demographic challenges 
facing China today and into the future are staggering.
    I was initially surprised by the near uniformity of responses I 
received to the questions I asked Chinese women. However, after several 
days, I realized that the similarity of responses was due to the 
tremendous public service campaign the Chinese government has 
undertaken to promote its one-child policy. Generally speaking, women 
in China genuinely and faithfully adhere to the one-child policy (now 
codified with the new population law as of September 1, 2002). While it 
is hard for Americans to accept that women elsewhere in the world might 
not want a house full of children, we must all think for a moment about 
the particulars of the situation in China. In a country with a 
population of at least 1.3 billion people, and where the current 
generation of women of childbearing age was raised with the philosophy 
of one-child only, it easy to see women in China accepting the 
limitation on births as part of their civic and patriotic duty. The 
public service campaign, if you will, to discourage multiple births, 
has been so prevalent and so ``effective'' that few women I met seemed 
willing to rock the boat. Indeed, all the women I met talked about how 
expensive it is to raise children, the underlying implication could be 
that it is even more expensive to raise multiple children given the 
coercive Social Compensation Fees levied on families daring enough to 
have multiple children.
    Clearly, China is sitting on a demographic time bomb. If the 
population continues to grow at its current rate, it will run into 
problems of resource allocation. I went to China to look into the 
resources of the U.N. Population Fund--all $3.5 million of its annual 
budget. When comparing the budget of the UNFPA with the overall budget 
of the Chinese State Birth Planning Commission--$3.6 billion--it 
quickly becomes apparent that China is not interested in UNFPA for its 
money. Rather, the PRC is interested in the fig leaf UNFPA provides in 
its attempt to show the world that it conforms to international norms 
and conventions for family planning. By having a UNFPA presence in 
China, the PRC can hold this up to the world as ``evidence'' that it 
follows generally accepted norms vis-a-vis family planning. In fact, it 
does not, and the limited presence of UNFPA in China may actually hurt 
efforts to bring the country's policies more in line with international 
norms. This leaves UNFPA with only two options, as I see it: expand 
into more counties in China--unlikely given its tremendous resource 
constraints; or scale back and demand real reforms of the Chinese 
government before agreeing to share international expertise and before 
granting international acceptance of Chinese practices. Given the 
codification on September 1 of China's one-child policy, UNFPA should 
act forcefully to demand changes to this law, to the coercive fines and 
so-called Social Compensation Fees.
    Before our departure for China, we were cautioned by certain 
Members of Congress that it would be impossible to get Chinese citizens 
to speak openly to our group. China is, after all, a police state. With 
all due respect, I believe that many of the women I met were able to 
speak openly and honestly. While the answers they gave were not the 
ones that some in the U.S. would choose to believe, I would like to 
think I was able to sift through the half-truths and obfuscation to 
come out with a relatively clear picture of the birth planning 
decisions made by dozens of women in rural and urban China.
    The opportunity I had to travel relatively freely throughout China 
is one that is afforded to very few people. The Chinese government was 
accommodating in that we were allowed to travel anywhere we chose in 
the country. Were we fully free? That is doubtful. Everywhere we went, 
we were accompanied by an official of the State Birth Planning 
Commission. At the initiation of our trip, I did not think it would be 
possible to operate as freely as I would have liked. In truth, the 
representative of the State Birth Planning Commission was more of a 
token than anything else. He facilitated our encounters in health 
centers and in factories, nothing more.
    In closing, I would like to express my thanks to those who 
facilitated the visit while assiduously avoiding any effort to color 
our team's impressions or influence our opinions. These include 
individuals in the State Department, the American Embassy in Beijing 
and the American Consulates General in Shanghai and Guangzhou. I urge 
the Administration to continue to monitor closely this aspect of 
Chinese life. As I mentioned, China's continued population explosion is 
the elephant in the room that no one wants to discuss and all would 
rather ignore. It will place ever-increasing strains on natural 
resources, public services, and employment. These strains will be felt 
up and down the political spectrum, and they must be factored into our 
decisionmaking as we deal with China in this new century.
    Thank You.
                                 ______
                                 

                Prepared Statement of Edwin A. Winckler

                           september 23, 2002

      Positive Recent Developments in Chinese Reproductive Policy

                              introduction
    As part of China's gradual transition from communism, Chinese 
social policy is gradually shifting, from limiting population through 
planning of births by the state, toward delivering a broader range of 
reproductive health services needed by citizens. A December 2001 Law 
has legalized both the birth limitation program and many reforms in it; 
associated regulations have helped curb abuses and expand citizens' 
rights. Due to the complexity of this subject and the shortness of 
time, I will package my remarks in the kind of numerical slogan in 
which Chinese public administration often packages complex policy 
matters--here ``one theme, two purposes and three threes.'' (For a 
longer briefing with references, please see my September 2002 paper in 
Population and Development Review, appended to this testimony and 
posted on the Commission website. My translation of the 2001 Law also 
appears in both places. As regards numerical slogans, in the late 1990s 
the birth planning program's summary of its key policies was ``33321,'' 
referring to the ``three unchangeables,'' the ``three basics,'' the 
``three links,'' the ``two transitions'' and the ``one purpose,'' 
explained below.)
    By way of introduction, the one theme over-arching my remarks is 
that this subject involves tradeoffs between competing rights and 
objectives, both for Chinese social policy and for American foreign 
policy. On both sides, public policymakers are making difficult 
practical and ethical choices. Each side has legitimate criticisms of 
the other, but these criticisms are most persuasive when they recognize 
that both sides have reasons for doing what they are doing that many on 
both sides consider legitimate. Each side should understand the values 
that are being privileged by the other and the values that are being 
sacrificed by its own choices. The PRC is deliberately limiting the 
reproductive freedom of current generations in order to preserve the 
sustainability of development and the quality of life of future 
generations. In the name of reproductive freedom, the United States is 
protesting this restriction, but at the cost of the UNFPA's capacity to 
deliver reproductive health services desperately needed by millions of 
women in countries less developed than China. 
``Limiting reproductive freedom'' may sound horrendous to some, but no 
freedom is absolute, including ``reproductive freedom,'' even in the 
United States, and even according to international conventions. 
Besides, any society may limit some freedoms during emergencies. For 
several decades the PRC leadership has regarded China's burgeoning 
population as a national crisis. Evidently by now much of China's 
populace largely agrees. Ongoing program reforms are deliberately 
intended to restore as much reproductive freedom as possible, 
consistent with continuing to limit population growth.
    Overall, my remarks have two purposes. One is to provide reliable 
information about recent policy developments in China, which I believe 
are mostly good news. My statement is called ``positive recent 
developments'' not only because some 
positive developments have occurred, but also because, in order to 
promote positive developments, it is essential to be able to recognize 
them when they occur. Such recognition becomes unnecessarily difficult 
when today's PRC is viewed through yesterday's ideology: as a 
timelessly totalitarian monstrosity mindlessly inflicting pointless 
suffering on its population. My other purpose is to identify forms of 
effective intervention from outside, which I believe should include not 
only criticizing the bad but also supporting the good. At the very 
least, as recommended by the State Department's May 2002 Independent 
Assessment Team, the Congress should give the State Department and 
other executive agencies the resources necessary to monitor 
developments in Chinese reproductive policy. Moreover, the executive 
branch should give some priority to doing so.
    In the body of my remarks, the first set of points emphasizes the 
extent of change in China over the past decade. These include 
demographic change to low fertility, political change toward a smaller 
State and weaker national leadership and, consequently, program change 
from state-centric birth limits toward client-centered health services. 
The second set concerns principles of law. The 2001 Law 
institutionalized the duty of citizens to comply with birth limits. 
However, it also institutionalized restraints on how those limits can 
be administered and it authorized a transition toward provision of more 
benefits. The third set of points notes the difficulties of practice 
that China will face in attempting to implement these principles over 
the next decade. Both politics and prudence dictate the need for some 
stability of policy. The central government's leverage over local 
practice is limited by decentralization of authority and resources. 
What any particular locality can achieve is relative to its level of 
economic development.
                            extent of change
    The main point of this section is that China is changing rapidly 
and greatly and that PRC reproductive policy is changing along with 
everything else. Birth policy change has been mostly for the better, 
particularly since around 1993. A 2000 Decision and 2001 Law codified 
reforms over the past decade and prescribed additional reforms over the 
next decade. These reforms in the Chinese birth program have not been 
superficial or cosmetic, but rather have been grounded in fundamental 
changes in population and politics.
    Demographic change. Around 1970 when the PRC began seriously trying 
to limit its population growth, the average woman bore a lifetime total 
of just under six children. Around 1980 when the PRC declared a ``one 
child'' goal, China faced a new generation-long baby boom. To China's 
leaders these facts constituted a crisis that required party-state 
intervention and justified some temporary sacrifice of citizens' 
rights. It took several years for national political and program 
leaders to arrive at a policy that seemed reasonable enough to the 
populace that implementation was feasible. In particular, the ``one 
child'' goal had to be modified to allow much of the rural population 
to have two children. Nevertheless, by around 2000, through some 
combination of program effort and socioeconomic change, total fertility 
had fallen to around two. Most couples no longer want many more 
children than that, though many still want at least one son. To China's 
leaders the crisis was not entirely over, because substantial 
population growth continues and the pressure on environmental resources 
continues to intensify. Therefore, they concluded, it is necessary to 
retain the program for limiting fertility, particularly in less 
developed areas where natural fertility remains high. Nevertheless, the 
fact that average national fertility is now below replacement has 
broadened policy options, to maintaining low fertility while expanding 
services. Therefore, China's national political and program leaders 
concluded, it is necessary to actively reform the program in many 
respects, particularly in more developed areas where citizens' 
childbearing aspirations barely exceed what the government recommends.
    Political change. Changes in reproductive policy reflect broader 
political changes. The most basic changes have been systemic. Since 
around 1980 PRC leaders have been deliberately shrinking the State and 
substituting indirect State regulation for direct State operation of 
economy, society and culture. PRC leaders have been systematically 
``legalizing'' the State by passing laws that both authorize and 
constrain administration of each area of public policy. PRC leaders 
have been further decentralizing the State by transferring many 
economic and social matters to provincial and local governments for 
funding and administration. There have also been significant changes in 
the leadership itself. The first and second generation of revolutionary 
founders such as Mao and Deng were confident of their control over 
Chinese society and imagined that they could plan reproduction in 
society just as they planned production in the economy. The third and 
fourth generations of revolutionary successors such as Jiang and Hu 
have become increasingly preoccupied with avoiding political collapse. 
They prefer policies that do not antagonize the public by making undue 
demands on citizens or by permitting maladministration by cadres. 
China's national political leaders are attempting to make policies more 
truly ``public'' in the sense that policies are adopted through 
representative bodies that then help monitor implementation, to prevent 
incompetence and corruption and to ensure transparency and fairness. 
Where bureaucratic ``red tape'' creates unnecessary costs of 
administration or opportunities for corruption, the PRC has begun to 
``deregulate''--including in the birth limitation program.
    Program change. Around 1970 China's national political leaders 
launched an ambitious attempt to control the quantity and improve the 
quality of China's population. Three decades of experience have 
provided China's birth program with many local examples of ``best 
practice'' in attempting to reach these twin goals, examples that the 
program has propagated nationwide. For example, a major early lesson 
was to stress propaganda-and-education over administrative or economic 
incentives, to stress pre-pregnancy contraception over post-pregnancy 
birth control, and to stress routine work over crash programs (the 
``three basics''). Accordingly, by the 1990s a major program objective 
was to replace crash campaigns by amateur cadres with continuous work 
by trained professionals. At the beginning of the 1990s, conservative 
national political and program leaders announced that some things about 
the birth program would not change: the basic policy of limiting 
births, overall national targets for controlling population, and the 
personal responsibility of local party and government leaders for 
meeting these objectives (the ``three unchangeables''). On this basis, 
since around 1993 the program has unleashed a series of progressively 
more fundamental reforms.
    Reforms in the early 1990s addressed flaws in China's state-centric 
approach itself (the ``two transitions''). First, birth limitation was 
linked to other government programs such as alleviating poverty and 
advancing women. Second, the program began adapting to China's new 
``socialist market economy'' by supplementing administrative and social 
``constraints'' with financial ``guidance'' through incentives and 
disincentives. Throughout the 1990s a major preoccupation was 
correcting abuses within the administration of the program itself. 
Clumsy coercion was attacked by the 1995 ``seven don'ts;'' local 
financial corruption was addressed first through anti-corruption 
campaigns and later through local financial reform. Reforms in the 
later 1990s initiated movement toward a more client-centered approach. 
With international assistance, China's more advanced localities began 
improving ``quality of care:'' some choice between methods of 
contraception in particular and better maternal-and-child health care 
in general. By around 2000, the emphasis was shifting from limiting the 
quantity of the population toward improving its quality--``quality'' 
both in the narrow sense of better maternal-and-child health care and 
in the broad sense of better lifelong health and education. The program 
also began reducing unnecessary regulation, for example allowing 
newlyweds to have their first child whenever they choose instead of 
waiting for local government permission.
    At the turn of the millennium, two major policy documents both 
further institutionalized and further reformed Chinese reproductive 
policy: a once-in-a-decade joint party-and-government Decision in March 
2000 and a long delayed national Law, finally passed in December 2001. 
As regards institutionalization, the Decision and Law reaffirmed the 
PRC's intention to continue trying to control national population 
growth and to limit individual couples' fertility. As regard reform, 
the Decision and Law formalized 1990s reforms and authorized further 
progressive reforms. As I say in my current article in Population and 
development review: ``Clearly the program is no longer just 
administratively enforced birth limitation, but equally clearly it is 
not yet entirely client-centered reproductive health care. Language is 
now in place authorizing much of both. How much of which prevails will 
depend on the power of rival policymakers and the vagaries of local 
implementation.'' Fortunately, since I wrote that, an important program 
conference has given further concrete indication that the program will 
continue moving in a progressive direction.
    Thus in early September 2002--just as the 2001 Law came into 
effect--the program convened a national work conference to summarize 2 
years of experiments in how to proceed with the additional reforms that 
the new Law now permits. The conference site, the city of Mudanjiang in 
the province of Heilongjiang, will serve as a national model for many 
features of the next round of reforms. One of the most important of 
these involves the PRC's rigorous system for evaluating the performance 
of local political leaders and administrative personnel (a form of 
western ``management by objectives'' that the Chinese call a 
``responsibility system''). This system is one of the national 
leadership's most important tools for controlling local politics and 
steering local policy. In the early 1990s the national leadership used 
this system to ensure draconian enforcement of birth limits. Now, in 
the early 2000s, the national political leadership is using this same 
system to ensure reform of the 
program toward less State regulation and more service delivery. In 
evaluating 
personnel performance, Mudanjiang is dropping indicators for population 
growth and birth quotas and replacing them with indicators for quality 
care and citizen satisfaction. This is the most direct evidence one can 
have of the likely future direction of the program: further reform in a 
progressive direction is now institutionalized not only as national law 
but also as the criteria by which local performance will be 
evaluated.
                           principles of law
    The main point of this section is that current PRC reproductive 
policy is principled not unprincipled. The 2001 Law embodies definite 
constitutional principles concerning citizen rights and duties, 
definite public policy principles of optimality and justice, and 
definite implementational principles of reasonableness and fairness. 
What so long delayed the adoption of a national law governing 
reproductive policy were difficulties in squaring the ideal 
requirements for what a law should contain under the PRC State 
constitution and the actual practice of birth limitation in China. It 
was only after the program was already substantially reformed that the 
2001 Law could be passed authorizing further reforms. Westerners may 
justifiably disagree with some of the principles involved or with how 
some of them are applied. Nevertheless, the underlying principles are 
analogous to principles upheld by the West--in fact many of them derive 
from the West or from current international 
conventions. Preoccupations common to the PRC and the West include 
defining an appropriate relationship between the rights and duties of 
citizens, establishing restraints on what the State can do to citizens, 
and achieving a feasible relationship between citizen entitlements and 
local resources.
    Duties of citizens. The 2001 Law reaffirms the duty of Chinese 
couples to practice contraception and to limit their childbearing. The 
PRC regards this duty as comparable to military service or tax payment. 
Ideally citizens should comply with such duties voluntarily. 
Noncompliance is not criminal and should not be punished by criminal 
penalties. Nevertheless, such duties are mandatory and therefore should 
be enforced by some sanctions. Accordingly, noncompliers must pay a 
steep ``social compensation fee'' (several times annual income), so 
called because the PRC regards it as a way to reimburse society for the 
extra costs imposed by extra children. This fee also provides local 
revenues from which to reward couples who do restrict themselves to 
only one child. Of course, such a fee also serves as a coercive 
deterrent, but in the form of a financial disincentive that the PRC 
considers appropriate to a ``socialist market economy.'' Sanctions 
become more severe only for citizens who do not pay this fee (either 
immediately or by yearly installments). Citizens who 
actively refuse to pay, or who otherwise actively obstruct birth 
planning, can be 
referred to the courts for trial and punishment.
    Thus, as a policy, PRC birth limitation is ``coercive'' in the 
sense that it is a mandatory restriction on absolute reproductive 
freedom. Nevertheless, by now--as a result of thirty years of 
propaganda and enforcement on the one hand and of economic and social 
change on the other--compliance is largely voluntary. Evidently by now, 
in principle, most Chinese citizens agree with their government that 
population should be limited and that citizens have a duty to limit 
their childbearing. Most citizens are willing to do so, provided that 
policy is reasonable and consistent and that enforcement is firm and 
fair--just as most Americans are willing to pay their taxes 
voluntarily, but only so long as everyone does so. In practice, of 
course, some couples attempt to break the rules, particularly couples 
who have a daughter or two but still do not have the son they desire. 
But then enforcement is definitely not supposed to be ``coercive'' in 
the sense of community-level implementors taking physical action 
against the noncompliers.
    Restraints on the state. Thus the 2001 Law also reaffirms the right 
of Chinese 
citizens not to suffer from abuses of maladministration or from over-
harsh implementation measures. This is part of an ongoing effort by 
national political leaders to rein in sometimes predatory local 
governments, in order to protect the regime's legitimacy in the eyes of 
the public. As noted above, during the 1990s the national political and 
program leadership made strenuous efforts to combat abuses in the birth 
program such as clumsy enforcement (physical coercion of persons, 
physical damage to property) and financial corruption (local 
governments levying undue fines to increase their revenues). These 
efforts included removing egregiously coercive or 
extractive provisions from local regulations. The 2001 Law 
institutionalizes these efforts by stipulating severe penalties for 
such abuses. Thus most of the punishments specified in the 2001 Law are 
not on citizens for non-compliance but on local officials for 
maladministration. Associated regulations will turn all money from fees 
over to county finance bureaus, reducing opportunities for financial 
corruption.
    The 2001 law also omits many harsh measures that still remain in 
existing provincial regulations, which will require removing them from 
provincial regulations as well. These include such unpopular 
requirements as that, after a couple has had its permitted number of 
children, one partner in the couple should accept sterilization. The 
2001 Law also continues efforts to combat demographic distortions that 
birth policy has aggravated, such as skewed sex ratios at birth. Thus 
the 2001 Law confirms that it is illegal to use ultrasound machines to 
determine the sex of a fetus as a prelude to sex-selective abortion. 
(This is intended as a restraint on both State and private medical 
providers, and on private citizens. Unfortunately the popular demand 
for sex-selection is so great that this attempt at restraint has little 
effect.)
    Provision of benefits. At the same time that the PRC is limiting 
some rights (mostly civil-political) it is extending others (in the 
case of reproductive health, rights to social services that go beyond 
those guaranteed by the Chinese State constitution). The 2001 Law 
affirms the right of citizens to a variety of benefits related to 
reproduction. Couples who forego extra children deserve direct rewards 
to compensate for the economic benefits the children would have 
provided. Poor households who 
practice birth planning deserve extra help in developing their 
livelihoods through priority access to poverty-relief resources and 
programs. Women deserve access to basic reproductive health services 
and to more opportunities for education and employment. An adequate 
social security system would lessen the need of parents for children 
who can care for them in old age. Of these benefits, the main specific 
one currently being actively expanded is reproductive health care. A 
main goal here is to raise the ``quality'' of the children actually 
born, through premarital and prenatal screening, checkups and nutrition 
during pregnancy, and better care during childbirth and early infancy. 
In 2001, concurrent with the process of passing the Law, the State 
Birth Planning Commission issued Technical Services Regulations to 
govern the provision of these benefits. Among other things, these 
regulations 
instructed the SBPC and Ministry of health to cooperate in establishing 
a ``local service provision network.''
                        difficulties of practice
    The main point of this section is that the principles endorsed by 
the 2001 Law face difficulties of implementation in practice. In the 
long run progressive reformists at the center probably will largely 
prevail. However the process will be gradual, piecemeal, and 
incomplete.
    Need for stability. Program change will be gradual because national 
political and program leaders regard some stability as a precondition 
for much reform. As in any country, policy change is easier to achieve 
if it can be represented as a continuation of existing policies. In the 
March 2000 Decision ``stability'' is a mantra: the goal is to 
``stabilize'' a low fertility rate that the leadership regards as 
potentially ``unstable,'' because in some areas economic and cultural 
development is not yet sufficiently advanced to reduce fertility on its 
own. According to the Decision, the key to maintaining low fertility is 
to ``stabilize'' and ``strengthen'' existing policies. This does mean 
maintaining strict limits on the number of children that couples are 
permitted, particularly in less developed areas where fertility remains 
high. However it does not mean ``strengthening'' enforcement against 
citizens--instead, what is to be ``strengthened'' is program capacity 
to deliver services--competently, honestly and efficiently.
    In practice, the process of reforming China's birth program will 
involve a great deal of stability. First, to placate conservative 
elites, large parts of central policy itself will not change. Perhaps 
as a concession to conservatives, the 2001 Law 
contains much language authorizing features of the old ``state 
planning'' approach. Second, to avoid erratic mass behavior, policy 
change must proceed in an orderly fashion. At each stage it must remain 
clear what rules cadres must enforce and citizens must obey. Program 
leaders believe that experience has taught them that for the program to 
remain stable--neither grass-roots implementors nor the mass public 
either rebelling or defecting--the program must steer a centrist course 
between too great severity and too great leniency. That is why, when 
the 2001 Law was passed, national program leaders immediately 
underlined that it represented ``neither a tightening nor a loosening'' 
of policy. Third, existing policies have been arrived at through a long 
process of trial-and-error. The reform strategy is to ``fade in'' new 
methods and to make sure they work before a ``fade out'' of old 
methods. Obviously change in China's birth program is a politically 
sensitive and technically complex process that requires careful 
attention to understand correctly.
    Limits from decentralization. Program change will be not only 
gradual but also piecemeal because the central government's leverage 
over provincial and local governments has some limits, for both 
constitutional and practical reasons. According to the Chinese State 
Constitution, provinces have some latitude for adapting national 
policies to provincial circumstances. In social policy, central 
ministries do not exert direct authority over their provincial 
branches, which report instead to the provincial government and its 
party leadership. The same is true of the relationship between 
provincial and local governments (county and city), and between local 
governments and community governments (township and village). As a 
practical matter, lower levels provide much of the funding and staffing 
for social programs and therefore inevitably have some latitude for 
influencing what occurs within their 
jurisdictions. For very high priority objectives, higher levels can use 
personnel policy and party discipline to overcome these obstacles. This 
has worked well for 
combating maladministration of birth limitation but is less likely to 
work well for delivering reproductive health services.
    Level of development. Program change will be not only gradual and 
piecemeal but also incomplete, because it will be relative to 
development. As Marxists, national leaders view many matters as 
relative to the overall level of national economic development, 
including what constitutional rights it is feasible to implement at 
each stage. In practice it will be harder to rein in abuses in less 
developed localities, where fertility is still high, compliance is less 
voluntary, and the quality of personnel is lower. In these poorer 
localities, positive benefits will be harder to fund and many benefits 
may never be feasible at all.
                    conclusion: policy implications
    By way of conclusion I return first to my two purposes (providing 
reliable information about recent policy developments and identifying 
effective forms of outside intervention) and then finally return to my 
one main theme (the inevitability of tradeoffs between different 
rights). All of these are complicated by the multiplicity of discourses 
in both China and the West. China includes both many modern discourses 
(e.g. variants of both communist and non-communist modernity) and many 
traditional discourses (e.g. variants of Confucianism and other 
philosophies). Each of these discourses has its own interpretation of, 
or adds its own nuance to, Chinese understanding of Western rights 
concepts. These Western concepts are themselves contested within the 
United States, within the international community, and between the two. 
In particular, the dominant discourse through which Americans have 
perceived PRC birth limitation is what Professor Susan Greenhalgh calls 
``the 
coercion narrative,'' whose relevance to the program has been steadily 
decreasing (please see her testimony). Accordingly, dialog between 
China and the West over the PRC's implementation of specific rights 
might best proceed by looking for common ground, particularly between 
the Chinese and Western discourses that are closest to each other. 
These are Western social democracy and its Eastern offshoot, post-Mao 
Chinese market socialism. However, philosophical agreement is no longer 
the main problem: China has already adopted most of the aspirations 
compiled in international agreements.
    The first of my two purposes has been to provide reliable 
information about recent policy developments in China, in particular to 
underline that there is much that is positive in recent developments, 
the 2001 Law in particular. Evidently that positiveness is difficult to 
detect through the lens of the coercion narrative, as Dr. John Aird's 
statement to this Roundtable illustrates, making that statement 
distinctly unreliable as a source of information. Dr. Aird's main 
conclusion is correct: Chinese couples still do not have complete 
reproductive freedom and the 2001 Law is intended to further 
institutionalize public policies limiting the number of children that 
PRC citizens are permitted to have. Nevertheless, his conclusion 
presents a number of problems. A first is that, contrary to the 
impression he conveys, few informed persons maintain otherwise, least 
of all the PRC government or the 2001 Law, which he correctly cites as 
plainly requiring that Chinese citizens limit their fertility. A second 
problem is that much of the rest of his strategy for substantiating his 
conclusion is irrelevant or misleading. It is irrelevant to report that 
enforcement of the policy has been clumsily coercive in the distant 
past. It is misleading not to report that, precisely for that reason, 
the PRC is doing its best to prevent enforcement from being clumsily 
coercive in the present and future.
    A third problem is that some of the rest of Dr. Aird's strategy for 
proving his conclusion is misinformed or misguided. As for 
misinformation, it is simply not the case that, for example, the 2001 
Law calls for population targets or birth quotas (that was a FBIS 
mistranslation). It is not true that the Law does not proscribe abusive 
coercion as a method of implementation (that is the meaning of the 
Law's demand for ``lawful implementation'' and for respecting citizens' 
``legal rights and interests''). It is not correct that the government 
makes no domestic mention of its opposition to abusively coercive 
implementation (in the late 1990s it advertised the ``seven don'ts'' 
and in the early 2000s it is trying to inform citizens of the 2001 
Law's ameliorative provisions). As for misguidedness, Dr. Aird asks why 
the PRC would pass such a law at this time if it were not for the 
sinister purpose of increasing ``coercion,'' when the answer plainly is 
that the PRC is belatedly bringing birth planning into a longstanding 
process of reconstructing the foundations of the regime on the basis of 
``socialist legality.'' In doing so the PRC has reaffirmed that birth 
limitation is mandatory, but it has also chosen the least coercive 
method for enforcing such limits that it could devise. Equally 
misguided as a form of argument, Dr. Aird finds ``contradictions'' 
between various Chinese policy statements, which again to him proves a 
sinister intent to ``coverup'' increased coercion, but which really 
just demonstrates that he simply does not understand the complex 
process of reform that is occurring.
    As regards effective intervention, over the past decade Chinese 
reproductive policy has been remarkably responsive to outside 
influences. Negative criticism of questionable practices has 
contributed. However, constructive assistance and persuasive ideals 
have contributed more. For example, the United Nations Population Fund 
(UNFPA) made the largest single contribution to reducing abortions in 
China, by improving contraceptive technology to avoid unauthorized 
pregnancies. International standards for reproductive health and 
women's rights (Cairo 1994 and Beijing 1995) quickly and strongly 
influenced Chinese reproductive policy. The Ford Foundation, Population 
Council and other international organizations helped launch the 1990s 
reforms in China's birth limitation program. The problem now is not so 
much persuading the PRC to adopt Western ideals as it is the PRC's 
ability to implement jointly held ideals. According to the 
``developmental'' approach to rights taken by China's leaders, the main 
question is one of feasibility. Demographic feasibility dictates that 
implementation measures not allow a rebounding of fertility. Economic 
feasibility requires that local resources be available to fund better 
administration and more benefits. Political feasibility demands that 
particular measures win credit for individual leaders within the elite 
and win legitimacy for the regime within society. Effective 
intervention would analyze and help alleviate these feasibility 
constraints, through both bilateral and multilateral assistance to the 
Chinese birth program in such matters as employing voluntary methods, 
raising technical standards, and combating HIV/AIDS.
    Finally, I return to my one main theme of tradeoffs. Most 
contemporary ethical theories concede that rights are never absolute. 
In particular some tradeoff is likely between libertarian rights of 
freedom from State interference and social-democratic rights to social 
services that require some State intervention. In China's reproductive 
policy the main tradeoff has been between the right of the current 
generation to bear more children and the right of future generations to 
resources and environment. In relevant American policy there has been 
some tradeoff between security and economic relations with China and 
the ethical values of some Americans related to reproduction. There has 
also been some tradeoff between the right of Americans to promote such 
values and the right of Third World women to receive international 
assistance for reproductive health. No doubt such tradeoffs will 
continue, but positive recent developments in Chinese reproductive 
policy should make them less acute.
                                 ______
                                 

                 Prepared Statement of Susan Greenhalgh

                           september 23, 2002

  Women's Rights and Birth Planning in China: New Spaces of Political 
           Action, New Opportunities for American Engagement

                              introduction
    Since China launched its controversial one-child-per-couple policy 
in 1980, influential American politicians and the media have advanced a 
powerful critique of the state-sponsored coercion used in the name of 
limiting population growth. While the focus on coercion has been 
helpful in drawing attention to the human rights abuses in the Chinese 
program, it has outlived its usefulness. That exclusive focus on 
coercion has limited both our understandings of, and our responses to, 
new developments in Chinese population affairs. Three of those 
limitations bear note.
    First, the coercion critique has paid scant attention to the 
violations of women's interests and rights, when it is women and girls 
who have borne the heaviest costs of China's birth planning program. 
Second, the coercion story divides the world into two opposed systems--
capitalist/socialist, free/coercive, good/bad--and defines the presence 
of coercion as the only thing worth noticing about the Chinese program. 
Evoking an older, bipolar cold-war world, the coercion perspective 
ignores forces of globalization that are profoundly transforming 
Chinese society, fostering not only change in the State program but 
also the emergence of new and progressive quasi-state and non-state 
sites of political activity. Finally, the coercion critique has 
encouraged punitive responses from the American government, rather than 
constructive engagements with Chinese reformers. The official American 
response has been less helpful than it could have been. China is 
changing. While continuing to draw attention to the human rights 
violations in the Chinese program, it is time to move beyond the 
single-minded focus on coercion to see the remarkable transformations 
that are taking place in the global and local Chinese politics of 
population and the opportunities they present for constructive American 
response.
    This brief presentation draws on nearly 20 years of active 
scholarly research on China's population dynamics, policy, and birth 
planning program. That research has involved numerous trips to China, 
where I have conducted extensive interviews with both the makers of 
China's policy and the peasants who are its main objects. In those 20 
years, I have heard many heartbreaking stories and seen many appalling 
things. In my scholarly work, much of it focused on the human costs of 
the Chinese policy, I have sought not to criticize China, but to 
understand how those troubling practices came about. That has seemed a 
more productive approach. This presentation draws heavily on interviews 
with leading Chinese women's rights scholars and activists.
    I want to make three points. First, despite the heavy costs China's 
restrictive population policy has imposed and continues to impose on 
women and girls, important pro-woman changes are occurring not only 
within the Chinese population establishment, but also outside the 
state--that is, beyond the scope of formal law, which often follows as 
much as leads social change in China. Given the growing role of non-
state forces in Chinese politics, it is important to attend to and 
support these developments. Second, the promising changes that have 
occurred in China have stemmed not from foreign criticism, but from a 
combination of internal critique and constructive engagements with 
international organizations. This history contains important lessons 
for the formation of American policy toward China in the future. Third, 
the prospects for further reforms to advance women's rights and 
interests will be shaped by a variety of cultural, political, and 
demographic factors, which present both challenges and opportunities. 
In this as in other domains, however, China will continue to follow a 
Chinese path to reform that will bear the marks of that nation's 
distinctive culture and politics. We must not expect Americanization.
                         i. dynamics of reform
    Since the early 1990s, two streams of women-focused critique and 
reform of the birth planning program have developed within China. One 
has been located within the State Birth Planning Commission, while the 
other has been emerging from a loose grouping of women's advocates 
located outside the population establishment. Before we can assess the 
prospects for future change, we need to understand the dynamics behind 
the reform movements that are already developing.
Reforms in the State Birth Planning Commission
    Since its creation in 1981, the State Birth Planning Commission's 
central mandate has been the fulfillment of stringent population 
control targets. In early 1990s, facing rising birth rates, the 
Commission oversaw the use of harsh administrative measures to reach 
targets. By early 1993, those in charge realized that fertility had 
fallen to a level far below what they had imagined possible. With the 
pressure to produce results off, in 1993-94 Commission leaders began to 
grow concerned about the social, physical, and political price that had 
been paid for pushing the numbers down so fast. Larger reform-era 
changes in Chinese society--in particular, the spread of an 
increasingly globalized market economy, the development of ``socialist 
legality,'' and limited political reform in the form of local 
elections--also stimulated growing concern at the Commission with the 
human costs of population control.
    These concerns, which grew out of China's own experience of 
population control, were supported by China's growing involvement with 
the international movement for women's reproductive health associated 
with the 1994 International Conference on Population and Development 
held in Cairo. The Cairo process gave supporters of change a vocabulary 
of reform that dovetailed with concerns that were developing 
domestically. In the wake of the conference, collaborations with 
foreign organizations advancing reproductive health agendas multiplied. 
From international 
organizations, reformers in the Commission received crucial financial 
resources and organizational and technical know-how to pursue more 
woman-centered, health-
oriented approaches to the State planning of births. As documented 
elsewhere, since the mid-1990s the State has introduced a package of 
programmatic, policy, and legal reforms--culminating in the new 
Population and Birth Planning Law--designed to improve the delivery of 
services while retaining control over population growth.
New voices from outside the State
    Meantime, another dynamic of change has been developing outside the 
population establishment. Since the mid-1990s, a loosely defined group 
of women scholar-activists has begun to speak out about the harmful as 
well as helpful effects of birth planning on women's health and well-
being. Crucial to the emergence of these women's rights activists have 
been the multiplying connections to transnational agencies and feminist 
and reproductive health networks, forged in particular at the Fourth 
World Conference on Women held in Beijing in 1995. The international 
women's conference gave the women's movement in China, which had been 
moribund during the 1960s and 1970s, fresh energy and life. Since the 
conference, a number of women's rights activists have begun to work to 
raise consciousness about the effects of State birth planning on women 
and girls, and to promote policy and program changes to alleviate them. 
These individuals come from a variety of backgrounds--from population 
studies to bioethics, women's studies, women's activism, and even 
journalism. They are located in such diverse institutions as 
universities, the social science academies, the All-China Women's 
Federation, and a variety of newly emerging NGOs. Women's advocates 
must exercise great caution in criticizing what remains a ``basic State 
policy'' of the party and government. In this restrictive political 
climate, transnational links have been critical, for they have given 
these women (and some men) new concepts, political support, and 
external resources to pursue their agendas.
              ii. a gender critique from outside the state
    Although they remain few in number, unorganized, and dependent on a 
fragile tolerance by the state, these women's rights advocates 
represent a new voice on 
population, with the potential to question the policies that have 
guided population work for the last 20 years. What have they been 
saying about the impact of birth planning on women's lives?
Contradictory effects on adult women
    The women's advocates I talked to all maintained that the birth 
control program has had huge and largely unexamined effects on women's 
lives. They also agreed that those effects have been not exclusively 
good, as the state has claimed, but contradictory, with harmful 
consequences mixed in with the good. On the positive side, birth 
planning has facilitated women's personal development, enabling them to 
acquire skills and education and to devote themselves to work and 
income acquisition as never before. While such benefits might be 
enjoyed by the majority of urban Chinese women, for rural women, they 
emphasized, the harm has outweighed the benefits. In the birth planning 
program, they felt, rural women have been treated less as subjects than 
as objects to be managed and used in the achievement of State plans and 
goals. The effects of this objectification extend from women's health 
to their psychological well-being and socioeconomic security.
Threats to infant girls
    A strict one- or two-child policy enforced in a culture with a 
strong son preference has also proved dangerous for rural infant girls. 
Statistics show that the sex ratio at birth has been rising steadily, 
reaching about 117 today. That means that for every 100 girls born, 117 
boys are born, much higher than the biologically normal level of 106. 
In the past infant girls were sent away, hidden, abandoned, or even 
killed; today female fetuses are increasingly being aborted. Death 
rates among female infants have also been rising, producing what 
demographers call an ``excess female mortality''--higher than 
biologically expected level--that is high and rising in some places. 
Despite the political risks of criticizing the state program, some of 
my interviewees acknowledged that the birth program was a contributor 
to these problems faced by the infant girls.
    The emergence of this women's health and rights critique is highly 
significant, for it suggests the evolution of a discourse on population 
that departs from the official line. Although the commentators I spoke 
with followed rather than led the State in interrogating the benefits 
of birth planning to women, they have moved much further than the State 
has in dismantling the official view that birth planning has been an 
unmitigated good for women. These activists also have visions of new 
paths to political change that might allow women themselves to begin 
articulating their own reproductive needs and interests.
             iii. ngo projects on behalf of women and girls
    While this gender critique is developing at the level of discourse, 
other promising developments are occurring at the level of practice.
NGO activities to promote women's interests
    Recent work has highlighted the significant innovations in the 
state program, but initiatives emerging from NGOs are significant as 
well. Let me give just a few illustrations of the many activities that 
are developing. One major project has supported rural income-generation 
activities that have worked to boost women's income and thus power in 
the family. Another important project is a magazine for rural women 
that carries special sections on reproductive health. Yet another is a 
telephone 
hotline set up for women to call in and get advice on a wide range of 
problems, including sexual and reproductive health and rights. Many of 
these projects have been developed on local initiative and been 
supported in part by resources from foreign organizations.
Peasant initiative in solving the problem of abandoned baby girls
    So far I have talked only about projects initiated by urban elite 
actors. But China's rural people are also taking matters into their own 
hands and working to alleviate some of the costs strict birth control 
has imposed on rural women and girls. One of the most important arenas 
of such peasant initiative is that of the adoption of infant girls. As 
is well known, strict limits on births have led many couples to abandon 
infant daughters. Even as the State has tried to regulate the adoption 
of these abandoned girls, in the countryside, research in a few 
localities suggests that a whole informal culture of adoption has 
developed that flourishes largely outside the official apparatus of the 
state. In the localities studied, this research indicates, the babies 
are adopted not from State orphanages, but directly from their birth 
parents or through intermediaries. Few of these adoptions involve local 
cadres, and when cadres are involved, they do not try to prevent the 
adoptions, but only to collect fines for unregistered adoptions. These 
studies also suggest that it is women who are taking the initiative in 
finding daughters to adopt, especially when they had only sons. In the 
rural areas, at least, adoption seems to be an arena in which women are 
gaining informal power to shape family size and composition and to give 
abandoned girls good homes. The legal development of women's rights is 
important, but so too are informal practices that bolster women's 
status and rights on the ground.
                 iv. challenges and opportunities ahead
    These efforts to promote women's reproductive rights and health are 
being nurtured into existence in a larger political, cultural, and 
demographic environment that presents both challenges and 
opportunities.
Political economy
    First, the challenge of political economy. Although it failed to 
fulfill its promises to women, Maoism at least championed the goal of 
gender equality. In the post-Mao era, the advance of global capitalism 
coupled with the retreat of the State from direct intervention in many 
areas of life have left women vulnerable to many forms of 
discrimination. Although the economic and political reforms have had 
contradictory effects on the lives of urban women, it is the losses--of 
job security, formal 
political position, and much more--that have received the most 
attention. A new consumer culture has commodified the bodies, 
sexualities, and identities of women and promoted the image of the 
``virtuous wife and good mother'' who has left the public sphere of 
production and politics to men. Moreover, the reforms have supported a 
biological notion of gender that sees women as by nature physically and 
psychologically different from men. This notion that women are 
essentially different from men can be expected to shape the women's 
rights that will develop in Chinese legal thought and practice.
Traditional culture
    Second, the challenge of traditional culture. The notion of women's 
independent rights has few precedents in traditional Chinese culture, a 
culture in which women's social and legal place was within the male-
defined family. In the countryside, where the majority of the 
population lives, the basic social and gender organization of the 
family has been quite resistant to change. These cultural constructs 
will color the way legal notions of women's rights develop.
A stable but unpredictable demography
    Third, the challenge of an unknowable demographic future. Despite 
the important reorientation that has occurred in the birth program, 
over the last 20 years the state's fundamental rationale for the 
drastic limitation of births has been the notion that China faces a 
real or potential population crisis--a crisis of people proliferating 
out of control, sabotaging the nation's economic growth and global 
ascent. Keeping the numbers down has been the number-one concern. 
Today's relaxation has been contingent on the achievement and 
maintenance of low birth rates over the last 10 years. Should the birth 
rate somehow rise again, or turn out to be higher than the current 
estimates suggest, the reforms may well slow.
Falling desires for children
    Fourth, the opportunity presented by social change. Twenty years of 
reform and economic advance have dramatically lowered childbearing 
preferences, even in the rural areas. In many parts of the country 
couples want at most two children, and in some of the more developed 
rural areas they want only one. These changes in Chinese society have 
made, and will continue to make, high-pressure tactics in the birth 
planning program increasingly unnecessary.
A new gender consciousness among State officials
    Fifth, the opportunity offered by a new gender consciousness in the 
state. Since the mid-1990s, the Chinese State has made women's 
economic, political, and 
educational development a newly important part of its ongoing reforms. 
While implementation faces obstacles, this new commitment to women is a 
promising 
development.
                               conclusion
    These challenges are real and will continue to shape the way the 
issue of women's rights is handled in China's birth planning program. 
Yet China is changing--and fast. Globalization is producing fundamental 
transformations in China's society and polity whose implications for 
women and birth planning no one can predict. The 
history of the 1990s and early 2000s reveals the critical role of 
international organizations in supporting both the positive reforms in 
the state, and the emergence of new, quasi- and non-state spaces of 
political critique and action. These promising developments open up 
opportunities for new forms of constructive engagement by Americans 
that support the reform tendencies already in place.
                                 ______
                                 

                 Prepared Statement of Stirling Scruggs

                           september 23, 2002
    UNFPA has worked in China since 1980. During our first 10 years, we 
focused on building self-sufficiency. In particular, we supported:

        <bullet>  China's first modern census, which was executed by 
        the U.S. Census Bureau.
        <bullet>  Contraceptive research, which was executed by WHO.
        <bullet>  Academic training for Ph.D candidates from 23 
        universities, which was executed by the U.N. Population 
        Division. Their studies took place in U.S., U.K. and Australian 
        universities.
        <bullet>  Contraceptive production, which eventually helped 
        China become self-sufficient in the production of high-quality, 
        international standard contraceptives, including birth control 
        pills, condoms, IUDs, injectables and foam. This activity was 
        executed by PATH, a Seattle-based NGO.

    Beginning in 1990, when I was the UNFPA Representative in China, 
UNFPA assisted with:

        <bullet>  Another census.
        <bullet>  Working with the returning Ph.Ds, whom we had sent 
        away for training. We assisted the 23 universities that 
        sponsored their studies to establish Population Science 
        curricula, which included Sociology, Demographics and 
        Statistics.
        <bullet>  Continued contraceptive research.
        <bullet>  The establishment of a high-quality Maternal and 
        Child Health Programme in 310 counties. The programme focused 
        on safe deliveries, ARI, diarrhea, breastfeeding, and the use 
        of high-quality contraceptives manufactured in Chinese 
        factories. Our partner agency in this endeavour was UNICEF.
        <bullet>  The establishment of a special interpersonal 
        counseling and informed consent project, which was executed by 
        PATH.
        <bullet>  The creation of China's first women's empowerment 
        projects in 36 counties. These were the most gratifying field 
        projects I have ever been associated with. And I will be glad 
        to discuss them later with anyone who is interested. They were 
        executed by FAO and ILO.

    Beginning in 1997, UNFPA initiated its current programme, which 
includes the now well-known 32 counties quality reproductive health 
care project. And we continued women empowerment projects.
                        unfpa advocacy in china
    UNFPA has always engaged in a serious dialog with the Chinese 
Government on human rights, including reproductive and women's rights. 
In:

    1980: UNFPA advised against the one-child policy.
    1983: UNFPA strongly condemned the first reports of massive 
coercion in China's population programme. The Executive Director sent 
the Deputy Executive Director the day after it was reported in the 
Washington Post. That coercion was occurring on a large scale. We have 
been in constant dialog since then.
    1990: My first field trip after assuming my post in China was to 
visit remote villages in northwestern China to investigate China's new 
campaign to sterilize the mentally retarded. While this sterilization 
campaign was initiated for humanitarian reasons, that is, because 
authorities had become aware that mentally deficient parents had in 
many cases neglected their children even to the point of death, the 
Chinese approached this situation without scientific evidence or 
consideration for human rights. I consulted with WHO and brought a team 
of experts to China, 
including a scientist from Columbia University and another from CDC in 
Atlanta. After a month, they developed a micro-nutrient programme that 
effectively decreased the incidence of mental retardation in these 
remote areas. The primary reason for the large numbers of mentally 
deficient citizens in these remote areas was a lack of iodine in their 
diets. The micro-nutrient programme was financed and executed by UNDP 
and UNICEF.
    1992: UNFPA, working with the Alan Guttmacher Institute, WHO, and 
Beijing University conducted a large-scale IUD study. This study was 
prompted by the large number of contraceptive failures of the Chinese 
steel ring IUD. The study resulted in a policy change in China. Two 
weeks after the study was released, China made it mandatory that all 
IUDs being used in its programme should be copper-T IUDs, which were 
being manufactured in China in the factories that UNFPA was 
assisting.
    Over a 10-year period, it is estimated that the use of the copper-T 
IUD prevented:

        <bullet>  41 million pregnancies
        <bullet>  26 million abortions
        <bullet>  14 million births
        <bullet>  1 million spontaneous abortions/miscarriages
        <bullet>  360,000 child deaths
        <bullet>  84,000 maternal deaths

    1993: I tried to initiate the first model county programme, which 
was, in fact, the precursor to the 32 counties programme that began in 
1997. When the day came for the Governor of the Province to suspend 
targets and quotas in the county in question, he was told that he could 
not suspend targets and quotas. Thus I canceled this programme.
    1994: The Cairo International Population and Development Conference 
specifically addressed coercion and advocated a needs-based, human 
rights-based approach to all population programming. This gave UNFPA 
the international standard and leverage to be insistent in mandating 
this approach.
    1995: Negotiations began on the current 32 county programme. These 
negotiations took 2 years and during those 2 years UNFPA did not have a 
programme in China.
    1997: The current 32 county programme was approved by UNFPA's 36-
member Executive Board, of which the United States was a member. This 
programme ends this year.
                               objectives
    <bullet>  The objectives of the 1997 programme were improved access 
of women and men to quality, integrated client-centered RH/FP 
information and services on a voluntary basis, and developing a model 
in selected counties from which lessons could be drawn for application 
at the national level.
    <bullet>  These efforts were reinforced and complemented by 
programmmatic activities aimed at creating an enabling environment in 
terms of women's empowerment and advocacy.
                              achievements
    The 32 counties were chosen according to geographic criteria and 
their stated willingness to drop targets and quotas, and whether they 
were willing to invest counterpart matching funds (3-9 times of the 
UNFPA budget).
    At the beginning of the project, a so-called ``pink letter'' was 
sent to all households in the 32 counties explaining the project (ICPD, 
client rights, etc.).
    Before: No privacy during counseling, no informal counsel.
    Now: Privacy and informed consent.

        <bullet>  Women who knew about at least three methods of 
        contraception has increased from 39 to 80 percent
        <bullet>  Sterilization decreased: 44 to 30 percent
        <bullet>  IUD's increased: 51 to 61 percent
        <bullet>  Other methods increased: 5 to 9 percent (mainly 
        condoms to prevent AIDS)
        <bullet>  Abortion decreased: From 18/100 to 11
        <bullet>  Maternal mortality: 66/100,000 to 62
        <bullet>  Infant mortality: 27.7 percent to 21 percent
        <bullet>  Delivery by skilled attendant: 90 to 96 percent
        <bullet>  Better medical protocols to include choice in 
        contraceptives, help during menopause, infertility, STI/RTI, 
        HIV/AIDS, breastfeeding promoted.
        <bullet>  So far this model has been adopted in 800 other 
        counties in China including four entire provinces.
                            challenges ahead
        <bullet>  Stop social compensation fee.
        <bullet>  Improve IEC and condom availability for AIDS.
        <bullet>  Continue to prove that choice is right and it works.
        <bullet>  Continue to advocate for Gender Equality.
                        unfpa role and structure
        <bullet>  UNFPA's role is to advocate and support governments 
        in their efforts to implement ICPD principles and its Programme 
        of Action.
        <bullet>  UNFPA reports to an Executive Board composed of 36 
        U.N. member countries. The Board meets 3 times yearly.
        <bullet>  UNFPA works in those countries which request 
        assistance, and which, according to the Executive Board, fall 
        within the criteria for assistance, both for the country and 
        the type of assistance requested. The four UNFPA country 
        programmes for China have each been adopted by UNFPA's 
        Executive Board.
        <bullet>  UNFPA's core budget is funded entirely by voluntary 
        contributions from 126 U.N. member countries.
        <bullet>  UNFPA assists 142 developing and transition 
        countries.
        <bullet>  UNFPA is a development fund. It relies on standards 
        and data from other U.N. entities (e.g. WHO, U.N. Population 
        Division, etc.). UNFPA generally works through U.N. agencies 
        and international NGO's and governments for project execution.
                               conclusion
        <bullet>  UNFPA, like all U.N. organizations, is guided by 
        international human rights standards and principles.
        <bullet>  UNFPA provides assistance in all phases of 
        reproductive health: FP, MH, STD/HIV prevention, treatment for 
        unsafe abortion, and advocacy for an enabling environment.
        <bullet>  UNFPA assists countries to become sustainable in 
        development planning and self-sufficiency through:
                --Data collection, analysis and research.
                --Governments must know population numbers, dynamics 
                (urban, migration, age etc.), in order to meet 
                population needs.
                --Advocacy for human rights, gender equality, women's 
                education, social participation, health care and RH 
                care.

    I am very proud of UNFPA, its principles, its work and its staff.
    The malicious lies and misinformation of the past few years have 
hurt UNFPA, most importantly they have hurt women, youth and men around 
the world. Today, due to discrimination and a lack of quality 
reproductive health services:

        <bullet>  One woman dies every minute.
        <bullet>  40 have unsafe abortions.
        <bullet>  190 become pregnant who do not want to be.
        <bullet>  48 percent deliver at home without medical help.
        <bullet>  10 people are infected with AIDS: half are under 25, 
        our future.

    They could be our mother, wife, sister, daughter--but they aren't. 
But they are a mother, wife, sister, or daughter to someone. They 
deserve our assistance.
    Thank you.

                                   - 

</pre></body></html>
